<html>
<title> - U.S. CITIZENSHIP AND IMMIGRATION SERVICES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]








               U.S. CITIZENSHIP AND IMMIGRATION SERVICES

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 29, 2014

                               __________

                           Serial No. 113-99

                               __________

         Printed for the use of the Committee on the Judiciary






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Available via the World Wide Web: http://judiciary.house.gov

                                   ______

                         U.S. GOVERNMENT PRINTING OFFICE 

88-919 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001











                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
SPENCER BACHUS, Alabama              SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina       DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
JASON T. SMITH, Missouri
[Vacant]

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel





















                            C O N T E N T S

                              ----------                              

                             JULY 29, 2014

                                                                   Page

                           OPENING STATEMENTS

The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     3
The Honorable Jason Chaffetz, a Representative in Congress from 
  the State of Utah, and Member, Committee on the Judiciary......     4
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Member, Committee on the Judiciary....     6

                                WITNESS

The Honorable Leon Rodriguez, Director, U.S. Citizenship and 
  Immigration Services
  Oral Testimony.................................................     9
  Prepared Statement.............................................    11

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................     7
Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Member, Committee 
  on the Judiciary...............................................    32
Material submitted by the Honorable Judy Chu, a Representative in 
  Congress from the State of California, and Member, Committee on 
  the Judiciary..................................................    47
Material submitted by the Honorable Louie Gohmert, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................    60

                                APPENDIX
               Material Submitted for the Hearing Record

Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Member, Committee 
  on the Judiciary...............................................    76
Material submitted by the Honorable Spencer Bachus, a 
  Representative in Congress from the State of Alabama, and 
  Member, Committee on the Judiciary.............................    79

 
                         U.S. CITIZENSHIP AND 
                          IMMIGRATION SERVICES

                              ----------                              


                         TUESDAY, JULY 29, 2014

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The Committee met, pursuant to call, at 10:31 a.m., in room 
2141, Rayburn Office Building, the Honorable Bob Goodlatte, 
(Chairman of the Committee) presiding.
    Present: Representatives Goodlatte, Coble, Smith of Texas, 
Chabot, Bachus, Forbes, King, Franks, Gohmert, Poe, Chaffetz, 
Marino, Holding, Collins, Smith of Missouri, Conyers, Scott, 
Lofgren, Jackson Lee, Chu, Deutch, Gutierrez, and Cicilline.
    Staff Present: (Majority) Shelley Husband, Chief of Staff & 
General Counsel; Branden Ritchie, Deputy Chief of Staff & Chief 
Counsel; Allison Halataei, Parliamentarian & General Counsel; 
Andrea Loving, Counsel; George Fishman, Counsel; Dimple Shah, 
Counsel; Kelsey Deterding, Clerk; (Minority) Perry Apelbaum, 
Staff Director & Chief Counsel; Danielle Brown, 
Parliamentarian; and Tom Jawetz, Counsel.
    Mr. Goodlatte. Good morning. The Judiciary Committee will 
come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    We welcome everyone to this morning's hearing on oversight 
of the U.S. Citizenship and Immigration Services, and I will 
begin by recognizing myself for an opening statement.
    Welcome to the House Judiciary Committee, Director 
Rodriguez. I understand that this is your first time testifying 
in front of Congress as the Director of USCIS.
    Your appearance comes at a time when Americans are feeling 
the repercussions of the illegal immigration crisis on the 
southwest U.S. border.
    Of course, if President Obama took seriously his duty to 
secure the U.S. border and enforce laws against illegal 
immigration, there would be no such crisis.
    U.S. Customs and Border Protection is the DHS agency 
getting most of the attention during this southwest border 
crisis. But there is no doubt that policies implemented by 
USCIS are a major source of the problem. And by that I mean 
policies such as Deferred Action for Childhood Arrivals, or 
DACA, a rubberstamping of credible fear of persecution claims, 
and even higher asylum grant rates by USCIS officers.
    DACA is a major reason for the influx of illegal immigrants 
to the United States. And discussion of the program is 
pertinent since USCIS recently announced the method by which 
the renewal of initial 2-year grants of DACA will be processed.
    And along with that procedure, USCIS made changes to the 
original DACA guidelines and requirements, including gutting 
the education requirements.
    I have previously expressed concern about the lack of any 
constitutional authority to implement DACA, the costs of the 
program, increased wait times for processing of legal 
immigration petitions directly resulting from DACA processing, 
and fraud in the program.
    Fraud is of paramount concern since an immigration system 
subject to rampant fraud is a national security risk.
    So I was particularly astounded in May when the USCIS added 
question and answer number 21 to its existing DACA guidance. It 
is an absolute invitation for fraud in which USCIS virtually 
admits that it will not verify the validity of documents 
submitted by applicants as evidence of DACA eligibility.
    I understand that when USCIS leadership was asked about 
question 21, congressional staff members were assured that 
``generally, the majority of documents received are valid.'' 
But forgive me if such an assurance is not comforting, 
especially now that USCIS is broadcasting its lack of intention 
to even attempt validation.
    USCIS processes over 6 million applications and petitions 
per year. I understand the magnitude of that responsibility. 
And the enormous volume of work should make antifraud measures 
all the more important.
    Unfortunately, what we have been hearing for years from 
sources at USCIS, and even the USCIS union, is the existence of 
a culture of ``getting to yes,'' unrelenting pressure on 
adjudicators to rubberstamp applications, and also of a culture 
where line adjudicators are routinely overridden when they deny 
applications or petitions.
    There are documented instances of employees in leadership 
at USCIS taking control of applications or petitions that have 
been brought to their attention by immigration lawyers or other 
outside forces. And I understand that there are ongoing 
investigations of such illegitimate interference in the 
adjudication process.
    The very notion that an application can be approved despite 
fraud on the part of the applicant, and that USCIS leadership 
will intervene if they get a call or email from an outside 
party interested in a certain visa application, is disturbing, 
to say the least.
    We know that the President has promised more administrative 
action to allow unlawful immigrants to remain in the United 
States and receive quasi-legal status and the right to work. In 
fact, some of the different tactics he may try to take were 
even outlined in a set of 2010 leaked USCIS memos regarding 
``Administrative Alternatives to Comprehensive Immigration 
Reform'' and ``Immigration Administrative Relief Options.''
    However, let's be clear, such policies of this 
Administration, including many implemented at USCIS, as well as 
promises about future administrative legalizations, continue to 
encourage unlawful immigrant parents to smuggle their children 
into the United States.
    These policies and promises are putting money directly into 
the pockets of human smuggling and drug cartels. And they are 
undermining the fundamental constitutional principles that 
Congress creates the laws and the President is bound to enforce 
them.
    I am interested in hearing how, under Director Rodriguez's 
leadership, USCIS will no longer contribute to this state of 
affairs. And I look forward to the director's testimony.
    It is now my pleasure to recognize the Ranking Member of 
the Committee, the gentleman from Michigan, Mr. Conyers, for 
his opening statement.
    Mr. Conyers. Thank you, Chairman Goodlatte, and Members of 
the Committee.
    In a nutshell, the United States Citizenship and 
Immigration Services is vital in examining the young people who 
are coming across our southern border.
    And I want to suggest that before we leave for 5 weeks, 
that we try to ease the deportation of children and appropriate 
emergency funds, because we have too few judges, too few asylum 
officers. We have 243 immigration judges for 375,000 cases. We 
are talking about a more than 4-year backlog, my colleagues. So 
youngsters with valid claims should have a speedier way to have 
that determined.
    Now, those without valid claims, I am sorry to say, should 
be sent back. But that determination is what democracy is all 
about. And it is our responsibility to be careful in how we do 
this.
    I know the strong feelings about these youngsters pouring 
over here. But the question is, how do we dispose of it 
consistent with democratic principles that guide us? And 
nowhere should this be more keenly felt than the House 
Judiciary Committee itself.
    So we must determine, even though there may be violence, 
persecution, trafficking, we are at a recess, and we still 
don't know.
    Throughout this session of Congress, there have been too 
many of us who have had but one theme: The President isn't 
enforcing immigration law.
    And this is a myth, a myth that has been debunked in 
hearing after hearing, where we have heard about record-
breaking detentions, removals, and prosecutions.
    Still, the majority is not persuaded by facts, and 
continues to blame the President for their inaction on 
immigration reform.
    Many of them have argued that the President's use of 
prosecutorial discretion is unconstitutional, and we should be 
removing young people who seek the opportunity, if they 
qualify, to live, work, and study in the United States. They 
have said that our laws protecting people fleeing persecution 
and torture in their home countries should be rolled back, and 
that more of them should be detained for longer periods of 
time.
    And most recently, some have used a humanitarian crisis 
affecting women and young children in Central America to say 
that we cannot fix our broken immigration system and provide 
relief to millions of undocumented Americans living within our 
borders. And that begins right in this important Committee.
    So today, let's listen carefully. Over a year ago, the 
United States Senate passed a comprehensive immigration reform 
bill, allowing millions of individuals to apply for earned 
legal status. The House majority has refused to bring the bill 
or its companion bill, H.R. 15, for a vote.
    The Congressional Budget Office tells us that we would 
reduce our deficit by $900 billion over 20 years through these 
proposals.
    So this refusal to bring a bill to the floor, despite the 
fact that an overwhelming majority of Americans support 
comprehensive immigration reform, is something that I feel very 
badly about. If such a bill were brought to the floor, I am 
confident that it would pass even the House of Representatives 
in the 113th Congress.
    Unfortunately, I am beginning to think that the only 
immigration bill that we might ever see in this Congress will 
be a bill to strip protections that all of us unanimously 
agreed to extend to child victims of trafficking, persecution, 
torture, and abuse.
    I feel that we can do better than this. We were sent here 
to solve problems that demand action on comprehensive 
immigration reform.
    So I urge my colleagues, majority and minority in the 
House, to end the delay and to start acting.
    And I join the Chairman in welcoming our distinguished 
witness, and I yield back the balance of my time. Thank you.
    Mr. Goodlatte. I thank the Ranking Member.
    It is my understanding that the Ranking Member of the 
Immigration and Border Security Subcommittee would like to make 
an opening statement. Ordinarily, we would ask at this time 
that Members put their opening statements in the record. 
However, noting her request, and noting that the Chairman of 
the Subcommittee is not present, the Chair will turn to the 
gentleman from Utah, Mr. Chaffetz, for an opening statement, 
and then turn to the gentlewoman. And then we will put all 
other opening statements into the record.
    So the gentleman from Utah, Mr. Chaffetz, is recognized for 
his opening statement.
    Mr. Chaffetz. I thank the Chairman, and I appreciate you 
holding this. This is obviously a vital issue to the United 
States, and it is something that is exploding on our borders 
and exploding in this country.
    As somebody who represents good, hardworking Americans who 
are doing the right thing, they are paying the taxes, they are 
working hard, they are trying to take care of their kids, they 
may be an individual who has just graduated and trying get 
their feet on the ground, there is a whole other wave of people 
who are coming here.
    And I happen to believe, Mr. Chairman, that there is a 
proper place for asylum for those people who are truly in 
harm's way, whose life is in danger. This is a country that has 
had open arms. But we are being taken advantage of, and by 
great numbers.
    The flow coming across our border is just absolutely 
unbelievable. By every metric, every account, everything I have 
seen, people who are coming here and trying to take advantage 
of the United States of America and our generosity are 
overwhelming the system. And the consequence is, we have people 
who are legally and lawfully trying to come to this country, we 
have been ignoring those people.
    The people who are legally and lawfully getting in line and 
trying to do it the right way, trying to come in the front 
door, what about those people? Because the resources that we 
have had to take for those who are not willing to play by the 
rules have put a great strain upon the system, a huge strain 
upon the system.
    And that is why I think this hearing here is so vital 
today. We have to address some very important topics. Those 
people who are coming across and claiming asylum--and they are 
not just coming from one or two countries.
    When I went and visited the border, I went to the detention 
facility in Phoenix, there were representatives from 60 
different countries that were trying to come across the border. 
They were overwhelming the system.
    When I visited the Phoenix ICE office, and we were talking 
to them about what is going on in the system right now, you had 
people literally knocking on their door every day, saying, 
``Please, arrest me, because I want to get in the system.''
    The system just generally works like this. You come in, you 
make your claim, you are going to get some sort of court date. 
Now, in Phoenix, when I was there, what they told me, and this 
was in 2013, is you would get a court date in 2020.
    In the meantime, what are you going to do? You are going to 
say, ``Well, because my court date is so far in the future, I 
need to be able to work.'' And then we grant these people a 
work permit.
    So now they get free education, free health care, and they 
have a work permit to compete against somebody who is legally, 
lawfully here, whether they are on a green card or whether they 
are maybe a United States citizen competing for those jobs.
    Again, we can be compassionate, but the reality is, 
President Obama and this Administration have created a magnet. 
And the magnet says this, ``Come step foot in the United States 
of America and nothing is going to happen to you. There is not 
going to be consequence to this.''
    It is unfair. It is not right.
    The President owns this issue. The President has created 
this situation. There is a reason why particularly the 
unaccompanied minors are flowing across the border. Because 
they don't feel like anything is going to happen to them.
    We are going to take care of them. We will go ahead and 
take you and then we will pass you off to somebody else. If you 
have a little note in your pocket, we will pass you off to 
somebody else.
    Do we do any background checks on who we are passing these 
minors to? No. No, we don't.
    Do we check the legal status of the person we are handing 
them off to? No. This Administration doesn't do that.
    It is fundamentally and to its core wrong. And a key part 
of this system is what the United States Citizenship and 
Immigration Services does along with this process.
    We have a lot of good men and women. They are patriotic. 
They are working hard. They are trying to the right thing for 
their country.
    But I worry about the direction that they are given, the 
direction that they are being given by their management. And I 
worry what this Administration is telling them to do or not to 
do. And that is of deep concern.
    So, Mr. Chairman, I appreciate you holding this hearing. A 
lot of Members have great questions that I look forward to 
hearing today. And I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman, and 
recognizes the gentlewoman from California, the Ranking Member 
of the Immigration and Border Security Subcommittee, Ms. 
Lofgren, for her opening statement.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Let me begin by welcoming our witness not only to today's 
hearing, but also to his new position as director of the U.S. 
Citizenship and Immigration Services.
    I think it is fair to say that USCIS doesn't usually get 
the kind of attention that the rest of the components of DHS 
do, but its mission is very important.
    As we know, USCIS adjudicates a wide array of immigrant and 
nonimmigrant petitions. Families hoping to reunite, businesses 
searching for talent, persons fleeing persecution and torture, 
lawful permanent residents applying to become American citizens 
all go through your agency. And it is critically important to 
our country that your agency performs well.
    It is also important to point out that USCIS is responsible 
for all of these important activities without any taxpayer 
money. It is entirely fee-driven except for a minor amount that 
is basically used to implement E-Verify. All of the applicants 
pay for the services they receive.
    Now, why is this important to our country? I sometimes 
mention my grandfather, who came to the United States in the 
early 20th century. He got on a boat, got off the boat, and I 
am in Congress today because he had the courage to want the 
American dream.
    And the director's own story of his family fleeing Turkey 
and Poland to escape anti-Semitism to Cuba, and then fleeing 
Cuba to escape communism. And here he is today, part of the 
rich American fabric.
    I have always admired immigrants who have enough get up and 
go to get up and go. They made our country. And we who are here 
have inherited that rich history, and we are now in a position 
to help shape the future for those who come after us. And it is 
incumbent upon us that we preserve that legacy.
    Now, there are many topics that will be discussed today, 
but I want to touch on the issue because it has already been 
mentioned about the unaccompanied children who have been 
apprehended at the southwest border.
    As we know, these individuals are, under law, placed in the 
safekeeping of the Department of Health and Human Services. But 
it is USCIS asylum officers who determine whether there is a 
well-founded fear of persecution. And in the director's written 
testimony, he explains that almost 65 percent of the asylum 
applications filed by unaccompanied children that have been 
adjudicated this fiscal year have been approved.
    Now, some argue that this somehow means that there is a 
rubberstamp of these applications, or that the asylum system is 
vulnerable to fraud and abuse. I look at that statistic and 
think that these are vulnerable children who are fleeing 
persecution and extreme violence, and they are thankful that 
they are receiving the protection to which they are entitled 
under domestic and international law.
    I think it is worth pointing out that an application for 
asylum isn't illegal. That is part of our immigration laws, and 
it has been since after World War II.
    Now, children who have been abandoned, abused, or neglected 
and who obtain a State court order can apply to USCIS for 
special immigrant juvenile (SIJ) status. The director notes 
that over 3,900 applications for this SIJ status have been 
received this fiscal year.
    Those of us who went to South Texas this month know that 
these applications require a finding by a State court that 
these children have been abandoned. A State court makes that 
determination, and it is only then that USCIS will proceed.
    Now, children who have been victims of severe forms of 
human trafficking are eligible for a T visa. It is important 
that we maintain and defend this procedure.
    As Mr. Conyers has pointed out, we had a nearly unanimous 
vote in 2008 that put the Congress and America on record saying 
we will fight human trafficking and we will make sure that the 
victims of human trafficking are given safe haven in the United 
States.
    Much of this discussion in the Congress and in the country 
has overlooked the fact that the Wilberforce act is about human 
trafficking, slavery, and sex trafficking. And if we are to 
eliminate the protections in that act, what we will be saying 
is that we will once again countenance the victims of 
trafficking being returned to their traffickers.
    I will say this, that we did make an exception for the 
children from contiguous countries. And we have learned, much 
to our sorrow, that those exceptions need to be revisited, 
because the United Nations, at our request, has reviewed our 
processes and found that children from contiguous countries who 
have been trafficked are, in fact, being returned to their 
traffickers.
    With that, Mr. Chairman, I look forward to this hearing, 
and I yield back.
    Mr. Goodlatte. The Chair thanks the gentlewoman.
    And without objection, all other Members' opening 
statements will be made a part of the record.
    [The prepared statement of Ms. Jackson Lee follows:]
       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
                       Committee on the Judiciary
    I would like to thank Chairman Goodlatte and Ranking Member Conyers 
for holding this timely oversight hearing on the United States 
Citizenship and Immigration Service.
    Mr. Chairman this hearing is timely because as you know we are a 
year and one month removed from having passed out of this Committee 
several bills pertaining to immigration.
    The bills were agriculture, border security, employment, and 
workplace compliance. But since then: nothing.
    We do the American people a disservice when we hold consecutive 
hearings on topics like asylum, Unaccompanied Minors, and other topics 
in order to sandbag the efforts of the millions of Americans who want 
to do comprehensive immigration reform.
    I wish to thank our witness: Mr. Leon Rodriguez, Director, USCIS.
    Director Rodriguez has a very rich personal history as an immigrant 
son from Turkey and Poland and a former prosecutor, leading me to 
believe that he will perform his duties in a professional manner.
    To that end, I appreciate his outreach to the 8.8 million permanent 
residents currently eligible to apply for citizenship who have not done 
so.
    The United States is a country made up of immigrants, and it is 
part of what makes us so strong and vibrant. And while immigration 
reform remains an unsolved challenge for our nation, House Democrats 
are leading the way towards comprehensive reform.
    Indeed, the decision made by President Obama two years ago to defer 
deportation action against young people who were brought here by 
undocumented parents but have been raised here in our country was an 
important step in the right direction.
    This decision has helped ensure that over half-a-million hard-
working, eager, and talented individuals who came here not of their own 
choice, and who are contributing to our economy and our defense, can 
remain here and continue to be part of building a strong future for 
America.
    Now we are faced, Mr. Chairman, with the surge of unaccompanied 
children on our southern border. They do not pose a threat to our 
national security; nevertheless the Emergency Supplemental 
Appropriations Act must be passed before Congress leaves town for its 
district work-recess.
    Contrary to the shrill rhetoric used by some commentators, the 
nation is not being invaded by an army of children dispatched to do us 
harm. In fact Mr. Chairman, one month ago you and I witnessed the 
deplorable conditions with your own eyes--babies as young as three 
years old.
    We are confronted with a humanitarian crisis resulting from the 
alarming scale of violence and economic desperation in three Central 
American countries: El Salvador, Honduras, and Guatemala. Politicizing 
the issue will not solve the problem. Taking actions that address the 
root causes in the short and long term will.
    In the short term, we need to allocate the resources needed to deal 
with the increase in unaccompanied children seeking refuge in the 
United States.
    Under current law, each such child is placed in deportation status 
immediately but given the opportunity to present their case for asylum 
to an immigration judge. This is a fair process and avoids the re-
victimizing of children who fled their home country to escape horrible 
violence.
    These cases involve children who are fleeing lethal violence or are 
victims of crime or human trafficking and are eligible for a temporary 
stay in the United States under the Trafficking Victims Protection 
Reauthorization Act of 2008, passed in 2008 by Congress and signed by 
President George W. Bush. That law provides persons fleeing lethal 
violence or escape from human trafficking the opportunity to have their 
case heard by an immigration judge.
    Yet this Congress has failed to provide any resources needed to 
fund the courts and judges needed to send these children through the 
legal system; therefore, we should fund the number of immigration 
judges needed. Without them, the result is a current average delay of 
578 days to hear over 366,000 pending cases.
    Because this situation is untenable for everyone--law enforcement, 
taxpayers, and individuals petitioning for relief, the first thing that 
we can and should do to reduce the backlog is pass the emergency 
supplemental and provide the funding needed to appoint 70 new 
immigration judges, as provided under legislation I recently 
introduced, H.R. 4990, the Justice For All Children Act.
    I remain committed to working with my colleagues, on a bipartisan 
basis, on this very important issue, and would hope for a spill-over 
effect into the realm of comprehensive immigration reform.
    I remain committed to advocating for common sense enforcement 
measures as part of a broader immigration reform package that will 
further secure our borders, ensure agricultural interests have an ample 
labor supply, universities and businesses are not short workers, and 
proper work-place compliance is achieved, but also uphold our values as 
a Nation of immigrants.
    Thank you. I yield back my time.
                               __________

    Mr. Goodlatte. We now thank our only witness, the director, 
for joining us today.
    Director Rodriguez, if you would please rise, I will begin 
by swearing you in.
    [Witness sworn.]
    Mr. Goodlatte. Let the record reflect that Director 
Rodriguez responded in the affirmative.
    Mr. Rodriguez serves as the director of the United States 
Citizenship and Immigration Services, the Department of 
Homeland Security agency responsible for administering and 
processing immigration benefits, including asylum, 
naturalization, and visa petitions.
    Prior to joining USCIS, Mr. Rodriguez was, first, an 
Assistant U.S. Attorney in Pittsburgh, led the Department of 
Labor's Wage and Hour Division, and served as the head of 
Office of Civil Rights within the Department of Health and 
Human Services, respectively.
    He attended Brown University, where he earned a bachelor of 
arts in history in 1984. Mr. Rodriguez received his J.D. from 
Boston College in 1988.
    Thank you very much for coming, and we look forward to your 
testimony.
    Your written statement will be entered in its entirety into 
the record, and I ask that you summarize your testimony in 5 
minutes.
    To help you stay within that time, there is a timing light 
on the table. When it turns yellow, that means you have 1 
minute left to summarize your testimony.
    Thank you, and thank you for being here today, and you may 
begin.

   TESTIMONY OF THE HONORABLE LEON RODRIGUEZ, DIRECTOR, U.S. 
              CITIZENSHIP AND IMMIGRATION SERVICES

    Mr. Rodriguez. Thank you, Chairman Goodlatte. And good 
morning, Ranking Member Conyers, Congressman Chaffetz, Ranking 
Member Lofgren, and the other Members of the Committee.
    I am extremely honored to be the new director of the United 
States Citizenship and Immigration Services, and to be before 
you today. I hope that today is the beginning of a long and 
fruitful and constructive relationship that I will have with 
this Committee as a whole and with its members, in particular.
    I am also honored to be the leader of more than 18,000 
extremely dedicated men and women who are the employees of the 
United States Citizenship and Immigration Services. I have 
worked in many different government positions. I have worked in 
the private sector. And I can say, even after the short time in 
office, that as a country, we really should be pleased to have 
extreme level of talent, commitment, and work ethic that 
characterizes so many of the people that I have had the 
opportunity to meet in these last 3 weeks.
    I accepted this job because I am a patriot. I am a patriot 
who believes that America is, indeed, unique in its freedom, 
its equality, its energy, and its enterprise. And those 
qualities are the product of the kind of people who are in this 
country and who come to this country.
    They are people who work hard. They are people who take 
risks. They are people who are dedicated to making a better 
life for their family.
    Those kinds of people come from all over and do all kinds 
of things. They can be tomato pickers. They can be physicists. 
They can be captains of industry. They can be plumbers.
    And for me, the challenge as Director of U.S. Citizenship 
and Immigration Services, and the reason I am embracing this 
challenge, is to create a fair and efficient system for those 
individuals to find a place in our society.
    I am the son and grandson of immigrants. My parents did 
flee communism in Cuba, and my grandparents fled both anti-
Semitism and hardship in both Turkey and Poland. These are 
certainly motivators for my work here as well. Like so many, my 
parents hoped for a better future for me and for my sister as 
well.
    I have spent the majority of my career as a law enforcement 
officer. I don't need to have done that to know that there are 
many people who wish the United States harm. So I do view it as 
a very solemn and important part of my work to safeguard the 
security and safety of the United States.
    I would like to relate two particular experiences that I 
have had during my few days as director of U.S. Citizenship and 
Immigration Services. I had the honor of attending a 
naturalization ceremony, where 53 different countries were 
represented, showing the remarkable energy and talent that 
continue to pursue the dream of becoming new Americans every 
day.
    And I had the opportunity recently to meet with the 
recently returned refugee processing team from our Refugee 
Asylum and International Operations Division that had recently 
come back from Iraq. These are incredibly dedicated and 
talented public servants, who I can say with great confidence 
inspired me when I heard the stories of the work that they do.
    Now we have some challenging issues to talk about today. I 
have no doubt that we will be talking about the Deferred Action 
for Childhood Arrivals program. I can say that as a former 
prosecutor, I have exercised discretion. I have worked for 
leaders who exercised that discretion. That is not anything 
novel in the various enforcement enterprises in our country.
    It is my view that DACA provides an opportunity to exercise 
prosecutorial discretion. For example, for an individual who I 
just met who is about to receive her degree at Harvard, or 
another individual who is in medical school and trying to 
decide whether to be a dermatologist or an OB/GYN.
    I imagine we will also speak this morning about the crisis 
at the border. I think, as has been noted, the President has, 
indeed, recognized this as a very serious problem, as has my 
agency and as has Secretary Johnson.
    I would like this morning to talk in more detail about how 
our asylum process works, and the degree to which these asylum 
claims actually play a role in this crisis.
    I look forward to our continuing conversation this morning.
    Thank you.
    [The prepared statement of Mr. Rodriguez follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               __________

    Mr. Goodlatte. Thank you, Director Rodriguez.
    With the indulgence of the Committee, I would like to take 
a few minutes away from this hearing to talk about someone who 
was a dear friend of mine, a mentor, and a Member of the House 
Judiciary Committee, my predecessor representing the Sixth 
District of Virginia, Congressman M. Caldwell Butler, who 
passed away last night around midnight.
    He served in the House of Representatives from a special 
election in 1972 until his retirement at the beginning of 1983. 
He served on this Committee, I believe, that entire time.
    And he served here with great distinction at a time when 
this Committee went through some very difficult issues, 
including his being very actively involved in the Watergate 
investigation and in the impeachment proceedings related to 
former President Richard Nixon.
    He was a public servant in the truest sense of the word. He 
has given immeasurably to his country, his State, and his 
community, Roanoke, Virginia, where he lived his entire life, 
and to which he was extremely dedicated.
    He attended the Roanoke public schools, and he earned an 
undergraduate degree at the University of Richmond and his law 
degree from the University of Virginia. He was admitted to the 
Virginia bar in 1950, and he commenced practice in Roanoke. He 
also served in the United States Navy.
    He served in the Virginia House of Delegates from Roanoke 
from 1962 to 1971, and served as the minority leader from 1966 
to 1971.
    He was a friend of everyone who knew him, and someone who I 
had great respect. He will be badly missed. His wife, June, 
passed on just a month ago. And it is a great loss for the 
Roanoke community and for our country.
    And I thank the Committee for allowing me to remember him 
for a few moments here.
    Mr. Conyers. Mr. Chairman?
    Mr. Goodlatte. The gentleman from Michigan served in the 
House of Representatives and on this Committee with Congressman 
Butler, and I would love to recognize him for a few words.
    Mr. Conyers. I thank you very much, and so did Zoe Lofgren 
serve with him.
    I remember him very well. There are very few conservatives 
that I remember going back that far as clearly as I remember 
him, because he was an impressive Member of the Congress.
    We exchanged views on an almost regular basis, but our 
friendship was never impaired by the different perspectives 
that we had on how government should run. So I join you, Mr. 
Chairman, in observing and remembering a distinguished Member 
of the House Judiciary Committee.
    I would like to yield to the gentlelady from California, 
for any comments you might make.
    Ms. Lofgren. I appreciate your yielding.
    I was a young law student working for Congressman Don 
Edwards, also a Member of the Committee, and I remember Mr. 
Butler very well. He was a person who we all admired, even if 
we did not agree on everything that he thought. He was a man of 
tremendous principle, totally honest, and totally brave in 
standing up for what he thought was right and the Constitution.
    He will be greatly missed. I count myself as one of his 
many admirers, and I remember him quite fondly from my days as 
a young staffer.
    I thank the gentleman for yielding.
    Mr. Conyers. Thank you, Mr. Chairman.
    Mr. Goodlatte. I thank the gentleman from Michigan and the 
gentlewoman from California for their remarks.
    We all offer our sincere condolences to the Butler family. 
They are in our thoughts and prayers in this difficult time.
    It was a great honor to know and to have the privilege of 
working for Caldwell Butler. I learned a great deal from him 
over the years. And his guidance and wisdom will be missed by 
me and many others.
    I thank you all for allowing me to say a few words.
    We will now turn to the questioning of Director Rodriguez.
    Director, I know that you are new to the job, so I would 
like to get your perspective on some things that have concerned 
us greatly and see whether there is an opportunity to correct 
some things, or to clarify what the USCIS is doing in certain 
areas.
    As I mentioned in my opening statement, question 21 of the 
revised Deferred Action for Childhood Arrivals, or DACA, 
frequently asked questions, states, ``Will USCIS verify 
documents or statements that I provide in support of a request 
for DACA?''
    And the USCIS answer is, ``USCIS has the authority to 
verify documents, facts, and statements that are provided in 
support of request for DACA. USCIS may contact education 
institutions, other government agencies, employers, or other 
entities in order to verify information.''
    This answer seems to put applicants on notice that USCIS in 
most cases will not in fact verify the validity of documents 
submitted to satisfy eligibility requirements. And thus, the 
frequently asked questions invites fraud.
    If USCIS takes seriously its stated antifraud commitment, 
why is it a good step to basically notify potential applicants 
that documents will not be verified?
    Mr. Rodriguez. I really appreciate the opportunity to work 
with you and this Committee on various concerns that they may 
have. And as I understand the concern here is the suggestion 
that there will not be a systematic verification of the 
authenticity of documents presented at the time of DACA 
renewals.
    It is my understanding that there is scrutiny of these 
documents, certainly at the time of initial application. We 
have a robust fraud detection and national security directorate 
that includes a number of former law enforcement and military 
officials among its ranks that engages in a variety of 
systematic checks of any individual who seeks any sort of 
benefit from USCIS as to criminal history, terrorist behavior, 
possibly other threats to the United States.
    And our adjudicators also receive training, so that they 
can in appropriate instances flag applications for benefits 
that appear to present fraud.
    It is for that reason that the agency felt comfortable in 
saying that in the ordinary course of business, while there 
would not be a specific attempt to authenticate particular 
documents, that there is an ability that our adjudicators have 
to look at documents. And if they do present concerns at the 
time of the review during the adjudication process, to flag 
those applications for further review.
    Mr. Goodlatte. A great many applications contain fraudulent 
documents. It would seem to me that a better policy would be to 
say that the documents are going to be reviewed and to leave 
applicants with the impression that they should not submit 
fraudulent documents, that they will be checked, and that if 
they are found to be fraudulent, that there are severe 
consequences that would befall someone submitting fraudulent 
documents to your organization.
    Mr. Rodriguez. Mr. Chairman, I appreciate the concern that 
you have raised. I am in the process right now of reviewing all 
of the agency's processes. Certainly, one of the things that I 
will be dedicating special attention to are any issues related 
to national security or fraud. Those are, certainly, high 
priorities for me.
    Mr. Goodlatte. Thank you. Let me go on to another question.
    The President has indicated his intention to continue to 
act administratively to change U.S. immigration policy when and 
if Congress does not do so in a manner to the President's 
liking.
    He has previously acted on DACA, expansion of parole, 
reducing the issuance of notices to appear for unlawful 
immigrants, prosecutorial discretion regarding removal of 
unlawful and deportable aliens, and several other means.
    As you entered the agency a few weeks ago, you must have 
received a briefing on the status of the next administrative 
action. Would you please tell us what is next on the 
President's agenda?
    Mr. Rodriguez. Let me be clear, and I think the 
Administration has also been clear about this, no decisions 
have been made. The directive that we have received is to 
examine possibilities for different avenues to exercising that 
prosecutorial discretion. I know that our Secretary is in a 
process of engaging with frontline employees at DHS, Members of 
Congress from both sides of the aisle, and stakeholders from a 
broad spectrum of American society.
    That process is ongoing, and no decisions have yet been 
made in that process.
    Mr. Goodlatte. The Speaker's Border Crisis Working Group, 
of which I am a member, recently met with Secretary Johnson. 
During that meeting, I asked the Secretary what would be needed 
in order to address the surge in those claiming credible fear. 
Secretary Johnson indicated that a change in law to strengthen 
the credible fears standard would be necessary to fix the 
current situation.
    Do you agree with Secretary Johnson that such a fix is 
needed?
    Secretary Johnson then said that while a fix is needed, now 
is not the appropriate time to fix the credible fear standard. 
When claims have gone from 5,000 to an estimated 50,000 in a 
short number of years, and your testimony indicates that those 
claiming credible fear are part of the surge, why is this not 
the time to fix this weak standard?
    Mr. Rodriguez. I would like to put this issue in a little 
bit of perspective. At this point, roughly 15 percent of 
individuals being apprehended at the border are presenting 
credible fear claims. We have surged our own capacity to 
address these claims. We have moved personnel to the various 
border processing areas, such as Artesia, to process those 
claims. We have accelerated our review time to a period of 8 
days, so as to ensure----
    Mr. Goodlatte. Thank you.
    Mr. Rodriguez. I am sorry.
    Mr. Goodlatte. Go ahead.
    Mr. Rodriguez. Yes, so as to ensure that we adjudicate 
those claims as efficiently as possible.
    I think that because at least USCIS has been able to surge 
in that manner, I think that is the basis for which the 
Secretary may have suggested that now may not be the time to 
address this particular issue.
    Mr. Goodlatte. In point of fact, the initial credible fear 
hearing is now resulting in 92 percent of those cases being 
approved to move on to the next status in the process, which 
involves the detention of people or releasing those people into 
the United States. As we know, a great percentage of those do 
not return for their subsequent hearing. So it would seem to me 
that increasing that standard, and doing it now, would send 
word to people that if they truly are seeking political asylum 
in the United States, they should state that when they come to 
this country and be prepared to show that it is at least as 
likely than not that they have a case that deserves to go on to 
that final hearing, rather than simply being rubberstamped 
through, as I would argue they are being now.
    Mr. Rodriguez. Congressman, I think I would not necessarily 
adopt the view that these claims are being rubberstamped 
through.
    On my third day in office, I sat in on a credible fear 
interview. I am a former prosecutor. I have conducted probably 
thousands of interrogations myself. I was very favorably 
impressed, actually, by the quality of the interrogation that I 
saw, by the probing nature of the interrogation that I saw. So 
I do think these interviews are being conducted in an effective 
manner.
    That said, the legal standard to establish credible fear is 
obviously a threshold standard that only then qualifies the 
individual for later adjudication.
    Mr. Goodlatte. But those later adjudications are now rising 
to approval rates that approach 70 percent, which is, to my 
knowledge, much higher than it has been in previous years.
    Mr. Rodriguez. In acknowledging that concern, Chairman, I 
look forward to a continuing conversation about this issue.
    Mr. Goodlatte. The Chair thanks the gentleman. The time has 
expired.
    And the Chair recognizes the gentleman from Michigan, Mr. 
Conyers, for his questions.
    Mr. Conyers. Thank you, Mr. Chairman.
    Would you discuss, Director Rodriguez, the sheer numbers 
that we are talking about? How many young people have come 
across our southwest border so far this year and last year and 
the year before?
    Mr. Rodriguez. Congressman, I apologize that as I sit 
before you, I can't tell you the specific numbers. Certainly, 
those numbers have grown over time. They remain essentially in 
the tens of thousands. But it is a fact that those numbers 
continue to grow.
    Mr. Conyers. I have 50,000 for 2013, 25,000 for 2012, and 
an even lesser number for 2011. Does that figure in agreeably 
with your thoughts on this?
    Mr. Rodriguez. My general understanding is that the trend 
until very recently was an upward trend. I think that trend has 
begun to level off.
    One thing I would note is I have actually started reading 
Latin American newspapers in Honduras, Guatemala, and El 
Salvador. Spanish is actually my first language. And there are 
increasingly stories in that media, one, about individuals 
being returned; two, about the fact that DACA offers no benefit 
to these individuals.
    And I think that, and the marshaling of efforts by the 
government, specifically by my agency, appears possibly to have 
started to take some effect with individuals in Central 
America.
    Mr. Conyers. Now, what about personnel? I mentioned that 
just a handful of judges and so forth here. I don't think we 
can realistically, on your 15th day in office, ask you why we 
aren't doing more when I have some pretty low figures of 
personnel that you have.
    Mr. Rodriguez. Well, this is actually my fifth transition, 
Congressman, into a new agency. One of the key aspects of doing 
that is that you need to be ready to drink from a fire hose, 
jump on a 100 mile an hour train, chew gum and rub your head 
all at the same time. So I have been busy trying to do exactly 
that.
    What I do know is the agency has recognized this additional 
burden. It has added 150 asylum officers, or is in the process 
of adding 150 asylum officers, noting the additional demands 
that are being placed on it, at least in part by the situation 
at the border.
    Mr. Conyers. You were the lead attorney in United States v. 
Flores, which involved enslavement of Mexican and Guatemalan 
nationals who had been smuggled from border areas in Arizona to 
farms in South Carolina and Florida. What, if you can recall, 
did you get out of that experience in working with vulnerable 
populations? And how do you think it may positively affect your 
work as the director of this very important office that you 
hold now at United States Citizenship and Immigration Services?
    Mr. Rodriguez. Thank you, Congressman Conyers, for that 
question.
    Prosecuting that case really was a career highlight for me. 
On many levels, I have to tell you, I was inspired by the 
stories of the victims that I met in that case. These were 
individuals very often from indigenous areas of Guatemala. For 
many of them, Spanish was actually a second language. Their 
first languages were actually indigenous dialects in those 
countries.
    Yet, these were strong, hardworking, really amazing 
individuals. And the opportunity to vindicate their rights and 
to fight the victimization that had occurred to them was really 
an important career opportunity for me.
    It, certainly, sensitized me to the fact that human 
trafficking and labor exploitation are very serious problems 
that particularly befall individuals who work in our shadow 
economy, as these individuals did. And that, certainly, will 
influence, will sensitize me to certain issues that USCIS 
faces.
    Mr. Conyers. Well, I think your experiences have prepared 
you well for your responsibility. We want to work as closely as 
we can. This Committee has a great concern about this challenge 
at our southwest border, and we would like to stay in touch 
with you far past your 2 weeks and 1 day on the job.
    Mr. Rodriguez. I look forward to a very fruitful 
relationship, Congressman. Thank you.
    Mr. Conyers. Thank you, Mr. Chairman.
    Mr. Smith of Texas [presiding]. Thank you, Mr. Conyers.
    The gentleman from North Carolina, Mr. Coble, is recognized 
for his questions.
    Mr. Coble. Thank you, Mr. Chairman.
    Mr. Rodriguez, good to have you with us this morning.
    Mr. Rodriguez, the Bush administration required that 
certain employers, such as Federal contractors, those employing 
foreign students in the optical practical training program, and 
others, use E-Verify. What plans do you have to expand 
mandatory E-Verify use?
    Mr. Rodriguez. Right now, there obviously are a very 
limited segment of employers who are actually subject to 
mandatory E-Verify. I have been pleased to see that the 
accuracy rate for E-Verify is at a very high level and that our 
ability to adjudicate temporary nonconfirmations appears to be 
very effective, and that employers who utilize E-Verify report 
very high levels of satisfaction with that system.
    Our agency has, in fact, prepared a report to this body, 
which was delivered some time ago, that talked about what would 
be required to move to universal mandatory E-Verify. It is a 
capability that we could achieve. And I look forward to 
continuing conversation about how we get there.
    Mr. Coble. I thank you for that.
    How do you ensure that those employers required to use E-
Verify, such as Federal contractors and employers of students 
in the optical practical training program, are in fact using 
the system?
    Mr. Rodriguez. Congressman, I will acknowledge that, as 
part of the many things I am trying to learn as I come onto the 
agency, I have not yet had the opportunity to be briefed on 
that specific issue. I, certainly, would look forward to 
following up with your office about the steps that we take to 
verify utilization by that particular portion of employers.
    Mr. Coble. If you would keep us current on that, I would be 
appreciative to you.
    Mr. Rodriguez. You can count on it, Congressman.
    Mr. Coble. When will the USCIS implement its programs to 
allow individuals to lock their Social Security numbers for 
work authorization purposes in an effort to prevent the number 
from being used fraudulently to obtain employment or a job?
    Mr. Rodriguez. I do understand that we have the capacity to 
lock Social Security numbers in those instances where we 
believe a Social Security number is being used fraudulently. I 
am not familiar with the ability of specific individuals to 
lock their own Social Security numbers. I imagine they can ask 
us to do it.
    Again, that is an area where I look forward to working with 
your office to make sure we get you the answers you need.
    Mr. Coble. I thank you, sir.
    Mr. Chairman, I yield back.
    Mr. Smith of Texas. Thank you, Mr. Coble.
    The gentleman from Virginia, Mr. Scott, is recognized.
    Mr. Scott. Thank you, Mr. Chairman.
    And thank you, Mr. Rodriguez.
    Just a bit about the present process. if we are going to 
shorten the waiting period for determining status, obviously, 
we have to hire more personnel. Who do we need to hire, and how 
much would it cost to significantly reduce the time for 
hearings?
    Mr. Rodriguez. I am in the process right now of reviewing 
various issues related to wait time. I do know that there was a 
time when, for example, our I-130 petitions, the family 
petitions, where the wait time for those had become 
unacceptably long. The agency has been able to restore the wait 
times to about 5 months, a more acceptable timeframe.
    I am going to continue as part of my transition into the 
agency to look at this issue of wait times, to ensure that we 
are moving as sufficiently as possible.
    It is important to note that we are a fee-funded agency. 
There are pressures on us from all sides to do all kinds of 
things with our fees. We need to live within our budget, is the 
bottom line.
    So we are going to continue to look at how we operate most 
efficiently and deliver the highest level of customer service 
within the fee structure that we have.
    Mr. Scott. You mentioned 5 months. What is your goal? Is 
there any way you can get down to a couple days?
    Mr. Rodriguez. The goal for those is about 5 months. I am 
not sure that we would ever be in a position to get it down to 
a couple days for those family petitions.
    There are other categories that we are able to process far 
more quickly. In some cases, we are required by law actually to 
process certain benefits more quickly.
    That goal really represents, over time, what has been seen 
as the target time for adjudication of those particular 
benefits.
    Mr. Scott. Now, people are entitled to attorneys at their 
own expense. I understand in many cases there are pro bono 
attorneys available. Is that true?
    Mr. Rodriguez. I have no doubt that there are pro bono 
attorneys who are available to assist people with various 
aspects, various immigration issues.
    Mr. Scott. What do lawyers typically charge for these cases 
when they are paid?
    Mr. Rodriguez. I don't know, Congressman. Actually, just 
having been a former private practice lawyer myself, I imagine 
there is a wide variety of what lawyers may cost in this 
particular field.
    Mr. Scott. If someone is deported, where do they go?
    Mr. Rodriguez. Where do people go if they are deported?
    Mr. Scott. Right.
    Mr. Smith of Texas. Director Rodriguez, your mike is not 
on. You might want to repeat that last sentence.
    Mr. Rodriguez. Sorry. My agency, of course, Congressman, 
does not handle deportations and enforcement and removal.
    I did have some little bit of experience as a private 
practice lawyer with the removal process. This can vary a lot. 
My understanding, generally, is that people are in detention, 
in some cases. And at some point, they are sent back, generally 
flown back to their country of origin.
    But honestly, because it is not what my agency does, I am 
not fully familiar with that process.
    Mr. Scott. We have had an influx of young children coming 
to our borders. Have other countries experienced similar 
influxes?
    Mr. Rodriguez. I am at least aware that Mexico has had its 
own influx driven by many of the same factors as the 
individuals coming to our country. I am not fully familiar with 
where else those individuals might be going.
    Mr. Scott. Mr. Chairman, I yield the balance of my time to 
the gentlelady from California.
    Ms. Lofgren. Thank you, Mr. Scott.
    I will have many questions, but I wanted to address the 
issue of in absentia rates.
    Oftentimes, we hear complaints that the unaccompanied 
children don't show up for the immigration hearings. In fact, I 
have heard some of my colleagues across the aisle say 90 
percent of the kids do not show up. PolitiFact correctly ruled 
that claim as false. Most recently, the Department of Justice 
testified before the Senate that half of the kids show up.
    But we now have a complete picture, because the American 
Immigration Council has analyzed the raw immigration court data 
made public by the Transactional Records Access Clearinghouse. 
They looked at every single case of juveniles appearing in 
immigration court beginning in 2005 through June of this year.
    Looking at only closed cases of children not detained, over 
60 percent of the children appeared in immigration court.
    But here is an important data point: When the child has a 
lawyer, 92.5 percent of those children appeared in court. It 
never dipped below 89 percent in any fiscal year.
    So I would like to ask unanimous consent to put in the 
record that analysis prepared by the Immigration Policy Center, 
indicating this very high appearance rate.
    Mr. Smith of Texas. Without objection, the analysis will be 
made part of the record.
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               __________

    Mr. Smith of Texas. And the gentleman from Virginia's time 
has expired.
    I will recognize myself for questions.
    Director Rodriguez, my first one is this. Last Thursday, 
The New York Times reported on a leaked DHS memo laying out a 
program to allow individuals in Honduras who are not eligible 
for refugee status to be paroled in the United States.
    As you know, historically, parole has been used in very 
rare instances on a case-by-case basis for temporary 
admittance, for urgent humanitarian reasons, or significant 
public benefit.
    Your own Web site notices that parole ``is used sparingly 
to bring someone who is otherwise inadmissible into the United 
States for a temporary period of time due to a compelling 
emergency.''
    Since the USCIS grants parole, would you tell the Committee 
how such a program intended for a large group of individuals 
would not be an illegitimate expansion of parole authority?
    We use parole for aliens who are clearly not being 
persecuted. Why isn't that a violation of current law?
    Mr. Rodriguez. First of all, I think it is important to 
underscore that in this area as well, no decisions have been 
made. Secretary Johnson, my colleagues throughout DHS, 
recognize the significance, the importance of dealing----
    Mr. Smith of Texas. Would you agree that if such were to 
occur, it would be unprecedented?
    Mr. Rodriguez. I would not be able to say.
    Mr. Smith of Texas. Okay, give me an example of where there 
is precedent for such type of action.
    Mr. Rodriguez. Again, I think the main thing is that any 
parole program or any other sort of program would need to be 
according to certain criteria.
    Mr. Smith of Texas. Assuming that the leaked memo is 
accurate, we have never had a program where individuals in 
another country have been able to take advantage of the system 
as the President, presumably, or you, have proposed. And I 
can't think of any precedent. Again, can you think of any 
precedent?
    Mr. Rodriguez. I could not specifically tell you whether 
there is or is not a precedent at this point.
    I underscore that no decisions have been made.
    Mr. Smith of Texas. Okay.
    Mr. Rodriguez. I will say that we are working very hard 
throughout DHS to find solutions to what we all agree is a 
significant issue being presented at our border.
    Mr. Smith of Texas. Okay. If there is a precedent, we would 
all like to know it. But I assume since you can't think of one, 
that there is not.
    Let me go to my next question. Even the USCIS union has 
stated that USCIS adjudicators are being pressured to ``get to 
yes'' on petitions and applications for immigration benefits.
    Don't you agree that any USCIS emphasis on adjudicators 
having to make quotas on the number of applications or 
petitions adjudicated in a day undermines the integrity about 
which you seem concerned in your opening testimony?
    Mr. Rodriguez. You know, interestingly enough, Congressman, 
I think that for as many individuals that have told me that 
there is a culture of getting to yes, I have heard other 
individuals saying that there is a culture of getting to no.
    Let me suggest that the culture we need to have and the 
culture that I have observed is a culture of getting to the 
right answer.
    Mr. Smith of Texas. Right.
    Are you aware of any pressure on the adjudicators to try to 
get to an affirmative answer?
    Mr. Rodriguez. I am aware that those allegations have been 
made.
    Mr. Smith of Texas. I know. But are you aware of any 
incidents where that has happened?
    Mr. Rodriguez. I am not aware of any specific incidents 
where that has occurred.
    Mr. Smith of Texas. Okay. Let me go now to the program that 
has already been mentioned several times today that was 
unilaterally instituted by the President 2 years ago that has 
allowed almost 600,000 individuals to stay in this country who 
were previously in an illegal status.
    Among the documents that could be proffered by these 
individuals to show that they were eligible for the program are 
educational records, employment records, and military records. 
What I would like to ask you is, how often does USCIS actually 
verify whether the educational records, military records, or 
employment records submitted are actually valid and are not an 
indication of fraud?
    Mr. Rodriguez. Congressman, I would not be able to give you 
a specific percentage as to when that occurs. What I would be 
able to tell you is that it is my understanding, based on my 
initial review of how our agency operates, that extensive 
training is given to our adjudicators.
    Mr. Smith of Texas. I understand that, but if you are not 
going to verify the records, if you are just going to take them 
at face value, that is an open invitation to a lot of 
individuals to apply for the legalization program and have 
pretty good confidence that they are going to be approved 
whether they are eligible or not.
    Mr. Rodriguez. Well, but our people are trained to look for 
indicators of fraud.
    Mr. Smith of Texas. Right. Why wouldn't you be able to give 
us an estimate as to how many out of 100 applications would be 
verified?
    Mr. Rodriguez. I am not able to. I am not sure that we have 
studied that in that way. It is the sense that I get from the 
staff that does this work that their judgment is that most of 
these documents are in fact valid and authentic.
    Mr. Smith of Texas. Okay.
    Thank you, Director Rodriguez. That concludes my questions.
    The gentlewoman from California, Ms. Lofgren, is recognized 
for hers.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Mr. Director, I wanted to ask a little bit about how we are 
doing the credible fear interviews for families detained in 
Artesia. It is my understanding that the Committee staff has 
requested data regarding the positive and negative, and we 
don't have that yet. So I am looking forward--I guess you don't 
have it yet, either--but we are looking forward to receiving 
that.
    But here are some of the concerns that have been relayed to 
me.
    Recent news reports indicate that there was a 9-year-old 
boy from Guatemala who threatened to commit suicide while he 
was there, if he was deported, but that he was sent back 
anyhow. There are other instances where families were put on a 
plane and then were taken off when consular staff was able to 
provide information that they would be killed if they were 
returned.
    So here's my question: It is my understanding from 
attorneys who have represented some of the older children that 
the credible fear interviews are being held in groups. For 
example, a mother would be interviewed with her children 
present.
    I think that is problematic, because if that mother has 
been the victim of rape or other kinds of serious matters, she 
may be reluctant to discuss that in front of her children.
    Similarly, older children who might have been subject to 
sexual abuse might be reluctant to say that in front of a 
parent.
    So I am looking to you to see, is it possible to have these 
credible fear interviews done with the necessary privacy to 
elicit actual truth from some of these individuals. And if they 
don't have a fear matter, they will be removed. But if they are 
in fact the victim of trafficking, we want to find that out.
    Mr. Rodriguez. Thank you, Congresswoman, for that question. 
It is my understanding that our staff is trained first to 
interview children, specifically in techniques required for 
interviewing children--I am a former sex crimes special victims 
prosecutor, and I know full well that is a different process 
than interviewing adults--and also, generally, for interviewing 
people who have endured some sort of trauma.
    I am aware of the concern that you raise. As part of my 
transition, I will look into these particular concerns as soon 
as I can, and to determine whether there is anything we need to 
do differently.
    Ms. Lofgren. I appreciate that, and we will look forward to 
receiving further information from you.
    I wanted to address the issue, just briefly, of the data 
that was recently transmitted by the department about the 
number of unaccompanied children applying for asylum. And I 
would ask unanimous consent to put my analysis in the record. 
But I think it is flawed data because it does not include the 
children who received special immigrant juvenile status because 
a State court has found them to be abandoned, and certain key 
trafficking victim visas and the like.
    So I would ask that you review that analysis, Mr. Director, 
and see if you concur in the analysis.
    I also want to talk about the need for efficiency in the 
agency. It is tough to do, but coming from Silicon Valley, it 
is important to me that we do it once, do it right, and not 
come back.
    For example, I recently had a situation that came to my 
attention from a business case where there was a request for 
evidence and notice of intent to deny that don't make any 
sense.
    For example, in one case, there was an allegation that the 
businessperson had departed the country, but he hadn't. He had 
been able to disprove that, but he had to prove it over and 
over and over again, the same point.
    I am looking for you, prospectively, how do we get 
technology deployed so that these matters aren't re-litigated, 
wasting the time, not only of the government, but of the 
businesses and families that rely on quick resolution?
    And then a final question on the 5-month I-130 delay. On 
the business side, we allow individuals to pay an additional 
fee for rapid adjudication of a matter. We haven't really 
gotten into that on the family side, but I am wondering if we 
can look at that.
    For example, if you are an American citizen and you marry 
someone from another country, the 5 months might be fine. You 
have no plans to leave the United States, whatever. But if the 
spouse is a technology business guy in the valley, he has to 
travel all over. And it might be worth a substantial fee to get 
it resolved because of the need to travel.
    So could you take a look at that opportunity, to see if the 
different family circumstances could be accommodated in that 
way?
    Mr. Rodriguez. Thank you for both of those questions.
    I would like to share that, for me, one of my top 
challenges and top priorities is tackling our agency's 
information systems. In many cases, the systems that we have 
are either paper systems or legacy electronic systems that 
really are not enabling us to operate--we are operating very 
well, as much as anything else, because of the ingenuity and 
work ethic of our people. But we could be operating even better 
if we had the kind of modern information systems that we could 
use.
    So for me, making sure that, at a minimum, before I 
conclude my tenure, that we can see the light at the end of the 
tunnel for those challenges will be a top priority.
    I think your second question was whether we can look at the 
possibility of premium processing for other benefit areas than 
the kinds of business visas where premium processing is now 
utilized. I, certainly, will look into that and communicate 
with this Committee about those possibilities.
    Ms. Lofgren. Thank you, Mr. Chairman.
    I yield back.
    Mr. Goodlatte [presiding]. The Chair thanks the 
gentlewoman.
    The Chair recognizes the gentleman from Ohio, Mr. Chabot, 
for 5 minutes.
    Mr. Chabot. Thank you, Mr. Chairman.
    Thank you for your service, Mr. Director.
    My first question would be this. My district is basically 
most of the City of Cincinnati, most of the greater Cincinnati 
area. We are down in the southwestern portion of Ohio. We 
oftentimes refer to our area as the tri-state area, because we 
have Kentucky right across the Ohio River and Indiana is right 
next to my district as well. So they call it the tri-state 
area.
    There was an article recently printed in the Cincinnati 
Enquirer that indicated that thus far there have been 842 of 
these unaccompanied children that--let me ask you a question 
about that, first of all.
    We keep referring to them as children. I have also seen an 
article recently that pointed out that actually something like 
91 percent of them are teenagers. To your knowledge, is that 
accurate? I understand, of course, that there is a big 
difference between a teenager that was 12 and just turned 13 
and one that is 19 and just turned 20. But in your 
understanding, 90 percent or so of these folks would be 
teenagers, rather than like 5- or 6-year-old kids?
    Mr. Rodriguez. First of all, let me let you know that I 
spent a lot of time in your district. I had a case as a Federal 
prosecutor in Cincinnati and really enjoyed my time there.
    The question really for us is a legal question. And under 
the law, these are children, in terms of what their rights are 
under the law.
    Mr. Chabot. I understand. I am an attorney as well. We 
called them for years infants even if they are under 21 years 
of age, the age of majority, which is now in Ohio, for example, 
come down to 18. So we call them infants, but, in general, 
terminology, when people think of infants, they are talking 
about a baby.
    So my only question really thus far is, do you know, is it 
accurate to say that 90 percent--the article said 91 percent--
but 90 percent of them are teenagers, meaning that they are 
from 13 to 19?
    Mr. Rodriguez. I don't know specifically what the age 
spread is of these children.
    Mr. Chabot. That is okay. Thank you.
    So getting on to the question that I put the question 
within, so 842 are apparently going to the tri-state area. I 
think 360 of those are to Ohio, the State that I happen to have 
one of the districts in. Now exactly how many are in the 
greater Cincinnati area, it didn't point out.
    But my question is this, it says that they are going to 
families, for example, going to individuals. They are trying to 
kind of farm them out to different people who are going to 
watch them until their hearings are ultimately held or whatever 
happens happens.
    But how much of an effort is there to determine the legal 
status of the people who they are going to?
    Mr. Rodriguez. So, Congressman, what I would have to share 
is that I am a little bit outside my lane here, in the sense 
that the actual placement of these young people, these 
children, is conducted by the Administration for Children and 
Families at HHS.
    Mr. Chabot. So you don't know?
    Mr. Rodriguez. I really don't know what they do to deal 
with that.
    Mr. Chabot. Okay. Because it would seem to me that that 
would be, and I don't want to put you on the spot, but it seems 
to me that would be a pretty important thing to be determined 
by the executive branch of the government and probably the 
legislative branch ought to know that as well. But if we are 
taking folks who are here--and I hesitate to say they are here 
illegally, because of the way the law was written, which was 
supposed to deal with trafficking issues, where people were 
criminally trafficked, and so legislation was passed back in 
2008, as we know. So there are some questions whether they are 
here legally or illegally.
    But the point is, if people who don't have really legal 
status and a lot of Americans are concerned about our here, and 
we are putting them with people who are also here illegally, 
may be under different circumstances, that doesn't seem like a 
very good idea to me.
    Would agree with that? Even if you don't know----
    Mr. Rodriguez. Again, I am outside my lane, so I don't want 
to substitute my judgment, either legally or for a policy 
matter, for the individuals who are actually responsible for 
that placement.
    Mr. Chabot. Okay. Well, let me cut you off because I have 
one other question I want to get to.
    As you are probably aware, carnivals and the fair industry 
rely on Labor's H-2B seasonal guest workers to supplement their 
domestic workforce. These fairs are important to American 
agriculture as they not only serve as a primary showcase of our 
grown in America products for the public, but also for the 
important fundraising, which supports youth and civic programs.
    Beginning in early December 2013, a significant portion of 
H-2B employers in the mobile amusement industry paid premium 
processing fees for expedited USCIS handling of their H-2B 
petitions. Apparently, there is a long delay going on, relative 
to actually getting approval of these, and it is setting back a 
bunch of businesses across America.
    Because I am running out of time, and it is going to be 
tough for you to answer the question, if I could have my staff 
follow up with you to see if we can't determine why that delay 
is happening and expedite that matter, so we can get folks 
hired here who we really do want to come legally, can we work 
together on that?
    Mr. Rodriguez. Yes.
    Mr. Chabot. I see a thumbs-up. I appreciate that very much. 
I noticed your staff are in the background nodding in the 
affirmative, so thank you very much.
    Mr. Rodriguez. Thank you, Congressman.
    Mr. Goodlatte. The Chair recognizes the gentlewoman from 
Texas, Ms. Jackson Lee, for 5 minutes.
    Ms. Jackson Lee. I thank the Chair very much.
    Mr. Rodriguez, congratulations on your prior service to 
this Nation and now a new start in your service to this Nation. 
The President as they say, befitted himself well, as he always 
does, in your appointment.
    I think it is important to take note of what I heard as I 
came in, as you were explaining to Mr. Conyers an extensive 
background where you understand your responsibilities of 
enforcing the law, but you also understand the plight of 
people.
    So let me start, first of all, by asking about the plight 
of people and the ability of this government to balance, 
particularly under Immigration Services following the law, 
those surges that may come for reasons of fleeing. And I know 
that there is Office of Refugee Resettlement that has dual hats 
in State and Homeland Security as well.
    So why don't you just give me a brief philosophy. I have a 
short period of time, and I have some more pointed questions.
    But just how do we balance that? You have been a 
prosecutor. We are on the Judiciary Committee. We are not 
calling for the violation of laws, but we are trying to find 
that balance. How do you see that balance?
    Mr. Rodriguez. Congresswoman, I certainly appreciate you 
pointing to my experience as a prosecutor. Every chief 
prosecutor that I have ever worked for has exercised 
prosecutorial discretion in some way. They have determined 
priorities.
    So when I was a street prosecutor, we knew that we needed 
to dedicate more prosecutorial resources to murderers than to 
individuals who were trying to get on the subway for free. So 
similar principles apply in our immigration processing as well.
    I think your question is also how do we deal with surges. 
And one of the things that I have been pleased to see as the 
new director of CIS is we have dealt with surges in our work 
for different reasons at many different times.
    In one respect, the first surge was actually the birth of 
our agency. Our agency was created in the early part of the 
Bush administration. It was separated away from the former INS. 
That required a huge lift by leadership and staff in order to 
make this now an independent, fully functioning agency.
    When DACA came along, we had a surge as well. And we 
learned a number of very useful lessons from that experience, 
which we can apply for whatever surges we may face in the 
future.
    Ms. Jackson Lee. Let me thank you for that. You made a very 
valid point.
    I just want to take a moment of personal privilege to 
acknowledge the late Leonel Castillo, who was a constituent of 
mine, a neighbor of mine, who was formerly an Immigration and 
Naturalization Services Commissioner under Jimmy Carter. It 
just came to my mind, and I am just making a moment of personal 
privilege on that.
    I only say that because he seemed to have had that same 
philosophy. That was many, many years ago.
    As I look at the work that you all have to do, 10 million 
applications, over 50 different types of petitions and 
applications. A prosecutor always lays out his or her case to 
win. I think you have to be orderly.
    From your perspective, a comprehensive immigration reform 
structure, obviously, it is the work of the executive and 
Congress, but an ordering of the responsibility that you have 
which will then see an enhancement of staffing, it would see 
more resources because one of the proposals, of course, are the 
fines that individuals would pay to get in an orderly line, no, 
not in front of those have been in line.
    What is your assessment on getting order to the immigration 
system in America?
    Mr. Rodriguez. So, of course, thank goodness, we are not 
charging fines. We are actually charging fees, because these 
are----
    Ms. Jackson Lee. And I stand corrected. They are fees.
    Mr. Rodriguez [continuing]. Immigration opportunities.
    Ms. Jackson Lee. There will be a multiple of fees.
    Mr. Rodriguez. That individuals are paying.
    I think order is sort of one of our core business 
objectives.
    Ms. Jackson Lee. And would you add to that, because I see 
my time is going, you started out, but that we can deal with 
the question of dealing with humanitarian crises in your whole 
answer. Thank you.
    Mr. Rodriguez. Yes. We have to, of course, address those 
aggressively when they occur. I think that is the nature of 
your question.
    Ms. Jackson Lee. Well, the nature of my question is, that 
if we pass comprehensive immigration reform, you sort of put in 
order all that you are dealing with now. You have the ability 
through laws to address these questions. Would it be better to 
have an order that allows you now to get your hands around the 
many disparate aspects of immigration in this country, one of 
which are individuals here to work, who are already here in 
this country?
    Mr. Rodriguez. That is what we have done. That is what we 
will always do, is balance different lines of business for the 
most efficient processing across our lines of business.
    Ms. Jackson Lee. And the EB-5 petitions, are they something 
that you can work with as well that generates jobs and other 
aspects of economic opportunity?
    Mr. Rodriguez. Yes, the EB-5 petitions are. We are in the 
process right now of affecting some important changes that were 
started by now Deputy Secretary Mayorkas, among other things, 
centralizing our EB-5 processing and fully staffing the EB-5 
office with economists and other sorts of professionals who 
will really enable us to very efficiently and correctly process 
those applications.
    Ms. Jackson Lee. Let me just say the Chairman and I have 
looked at this issue. I think we had some legislation that was 
moving at one point in time. So I am looking forward to the 
ordering of that, because I think there is merit to the EB-5, 
in terms of its investment, if it is in an orderly process, and 
as well the benefits that come. But I want to make sure that 
the benefits are not overly excessive for the investment in the 
job creation that is so very important.
    I will just finish on this note. Is it important for a 
Nation that has shown itself to have been built on immigration 
and laws, to have a humanitarian element to continuing in this 
process of immigration, even in the 21st century? We know what 
we did in the 1800's, the 1900's, the 20th century, in terms of 
the flow of immigration. Do we still have that role now in the 
21st century?
    Mr. Goodlatte. The time of the gentlewoman has expired.
    The Chair recognizes the gentleman from Alabama, Mr. 
Bachus, for his questions.
    Mr. Bachus. Thank you.
    We have had several words that have been used time and time 
again here this morning. I have heard the word ``discretion.'' 
I have heard the term ``humanitarian.'' You used the words 
``freedom'' and ``enterprise.'' You stressed pillars of our 
democracy.
    But I have heard ``discretion, discretion, discretion.'' I 
have heard you say that six times.
    But what I haven't heard you say is ``rule of law.'' You 
are a prosecutor. You enforce the law. My parents, your 
parents, are immigrants. They came here legally. They followed 
the law rule of law.
    What I am seeing here is when you have a rule of law, there 
is a reason. And you may exercise discretion toward someone 
that violates that law, but there is also the victim.
    You have dealt with a lot of victims. You met with those 
who have survived their death, a lot of times.
    Someone on the Democratic side said ``plight of the 
people.'' I would like to talk about those who are suffering 
from the President's actions on encouraging--and I think it is 
encouraging. He admitted that DACA has incentivized 
unauthorized immigration, particularly with respect for 
children. He said that is a problem. That is why people are 
sending people here.
    The plight of people. I am going to talk about a very 
conservative paper, and that is Cameron Smith, who is general 
counsel of the Alabama Policy Institute, a very conservative 
organization, and The New York Times. They agree on one thing. 
They said the program, talking about DACA, is benefitting some 
immigrants, but it extends the visa wait for others.
    He talks about DACA and the lengthy backlogs on visa and 
citizenship applications where people are following the law. 
You mention all the people who have been transferred to the 
border from immigration to deal with these children. What The 
New York Times said, and this is an article I would like you to 
read, maybe when you get back, February 8, 2014: ``The long 
waits came when the agency''--your agency--``shifted attention 
and resources to a program President Obama started in 2012 to 
give deportation deferrals to young undocumented immigrants, 
according to Administration officials.'' Not me.
    They go on and talk about U.S. citizens petitioning for 
green cards for immediate relatives are at a high, if not the 
highest priority in the way Congress sets up the immigration 
system.
    But there are nightmare story after nightmare story of a 
man coming back from Czechoslovakia, his wife, a citizen, 
having to wait 8 months and still not a hearing. A family in 
Australia, he is American, she is Australian, they have 
children. He has been back for 6 months. They are still there.
    I don't think it was intended. In fact, the Congress also 
passed a resolution here, just July 8, saying there are now 900 
children in Congo, Democratic Republic of Congo, waiting on 
being united with their adoptive parents here in the United 
States because Immigration quit processing these applications 
and assigned it to the State Department, and the State 
Department has slowed down on it.
    Now I don't know why you did that, but there is a 
resolution--and I am going to submit for the record a letter 
signed by about 20 Democratic Senators, Elizabeth Warren, Mitch 
McConnell, a Republican, but on both sides, and about 90 of us 
from the House, who said please process these claims, please 
pay attention to the Democratic Republic of Congo and quit 
slowing these things up.
    So the victims, just like The New York Times said, the 
program benefits some. DACA is benefiting some. You are having 
children coming here. You are offering humanitarian things.
    But we have a lot of relatives and families who are being 
separated because you have taken resources, and even the 
Administration in this letter said you have taken, because of 
this plight of the border, some immigrants extending visa wait 
for others. These are people who go through the process.
    Let me close with what Cameron Smith said in the Birmingham 
Business Journal. The governance by rule of law is being 
challenged, as it may be in times crucially important to the 
American system. By circumventing immigration law, the 
President has encouraged even more unlawful immigration. In 
response, America has a choice to either create yet another 
incentive for unlawful activity by caring for immigrant 
children and attending to their health needs or processing 
those who are going through the system.
    I would just like to submit this to you and say to you, 
please don't sacrifice families in Asia, families in Europe, 
and deploy all your resources about these children. It tugs at 
our heartstrings, but what you are not seeing are all these 
examples of people who are suffering.
    And rule of law, you are a prosecutor, rule of law is what 
this country is built on.
    Mr. Goodlatte. The gentleman is very eloquent, but his time 
has expired. Is there a question in there to the director?
    Mr. Bachus. Well, if you could respond.
    Mr. Goodlatte. If he wants to respond, we will give him a 
brief response.
    Mr. Bachus. I don't know if you are aware of the resolution 
of Congress on the Congolese children.
    Mr. Rodriguez. I look forward to reviewing these materials. 
I am aware of the Congo situation. I look forward to discussing 
that with you.
    I am committed to the rule of law. That is why, when I 
mentioned to Congressman Smith the question about the culture 
of getting to yes. To me, the culture is getting to the right 
answer under the facts and under the law.
    And, absolutely, we have an obligation of stewardship to 
the people that you describe to run an efficient and fair 
system.
    Mr. Bachus. All right, thank you.
    Mr. Goodlatte. The Chair recognizes the gentlewoman from 
California, Ms. Chu, for 5 minutes.
    Ms. Chu. Thank you.
    First, I would like to put into the record this document 
from the Coalition for Humane Immigrant Rights of Los Angeles 
on their recommendations pertaining to oversight of USCIS at 
the Department of Homeland Security.
    Mr. Goodlatte. Without objection, it will be made a part of 
the record.
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                               __________
    Ms. Chu. Thank you.
    Director Rodriguez, I am gratified to hear that you were a 
prosecutor and that you were in a strong position to challenge 
false claims, to tell truth from fact.
    What I want to know is whether the current credible fear 
system works. I understand that the current credible fear 
asylum system is a robust process that requires an asylum 
seeker to demonstrate a significant possibility of succeeding 
in demonstrating a past persecution or well-founded fear of 
future persecution to an immigration judge.
    So, Mr. Rodriguez, could you briefly walk us through what 
an asylum officer does when conducting a credible fear 
interview? And how does the officer test the credibility of an 
applicant? And how does an officer determine whether there is a 
significant possibility that the individual could be eligible 
for asylum?
    Mr. Rodriguez. Thank you, Congresswoman. I appreciate that 
question.
    I don't mind sharing really one of the most important sort 
of transitional activities that I have conducted was actually 
sitting in on a credible fear interview.
    It is important to note that the credible fear standard is 
a threshold standard. In other words, it is not the final 
determination of whether somebody gets asylum. It is simply a 
threshold determination to determine whether that individual 
who otherwise is in an expedited removal proceeding can fully 
assert those claims.
    I observed the credible fear interview. I understood it to 
be based on a basic rubric that is used by the asylum office to 
evaluate those claims.
    It asked questions specifically targeted to determine 
whether in fact the individual could potentially show a 
credible fear of persecution or torture, on various bases, 
race, national origin, membership in a particular social group.
    From that interview, I was satisfied that there is an 
appropriate matrix of questions and appropriate training to our 
asylum officers to assess those individuals, given what is the 
threshold standard that applies under credible fear.
    And I will be continuing to look into that to satisfy 
myself that my initial assessment is correct.
    Ms. Chu. In fact, I would like to know about that training. 
It is my understanding that asylum officers receive extensive 
training to detect fraud and make credibility determinations, 
such as through the USCIS academy.
    Can you elaborate on how they are trained to detect such 
fear? And would you say that USCIS officials are effective in 
detecting such legitimate cases of credible fear?
    Mr. Rodriguez. Thank you, because I realized that I hadn't 
answered that portion of your initial question.
    Yes, the manner in which the questioning was done did ask 
questions that go to the question of whether the individual 
presenting the credible fear claim is themselves a credible 
person, in a sense, whether their story hangs together, whether 
it makes sense, given both the general facts, the country 
conditions, and the applicable legal standard in that case.
    Now, I am not fully familiar with the exact training 
curriculum. That is something that I will look into and make a 
judgment about.
    Ms. Chu. And then, are they effective?
    Mr. Rodriguez. And whether they are effective. My sense is 
that the interviews are effective. My initial assessment is 
that they are effective in determining whether that threshold 
standard is actually met.
    Ms. Chu. There are those in the public who are saying that 
the increase in asylum applications are evidence of fraud in 
and of itself. I am struck by the fact that not only has the 
recent increase in credible fear claims been driven largely by 
an increase in claims from El Salvador, Honduras, and 
Guatemala, but the percentage of cases from those three 
countries that have resulted in a positive finding of credible 
fear have also been increasing.
    Mr. Rodriguez, is there reason to believe that 
deteriorating conditions in those countries explain the 
increase in credible fear claims and the increase in credible 
fear findings?
    Mr. Rodriguez. Congresswoman, the deteriorating conditions 
in those countries are in fact well-documented. In terms of 
violent crime, human rights abuses, those sorts of concerns are 
in fact well-documented. In fact, there is reason to believe 
they play a role in the situation we are seeing at our border.
    Ms. Chu. And are they to be distinguished from the other 
countries in Central America?
    Mr. Rodriguez. I am most familiar right now with the 
Northern Triangle, because it is really where a lot of our 
workload is coming from. I know that similar concerns have 
emerged from other countries in Latin America and, frankly, 
throughout the world.
    Ms. Chu. And finally, temporary protective status for 
Filipinos. This is very important to individuals in my 
district. Since the devastation of the earthquake, we have been 
constantly asking for that temporary protective status, so that 
Filipinos could send remittances and get protective status. 
What is status of that?
    Mr. Rodriguez. I appreciate that question. There is, as you 
know, ongoing consideration as part of an interagency review 
process to determine whether temporary protected status should 
be granted in the case of the Philippines. That process is 
ongoing.
    I do know that prior to my arrival, the agency expedited a 
number of other benefit categories, for which various Filipino 
nationals or Filipino immigrants might be eligible in order to 
afford relief to those individuals in that area.
    We will continue to work on concluding the evaluation of 
the TPS process.
    Ms. Chu. I hope it is soon, Mr. Rodriguez.
    Mr. Rodriguez. Thank you. I appreciate that.
    Ms. Chu. Thank you. I yield back.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Virginia, Mr. Forbes, for 5 minutes.
    Mr. Forbes. Mr. Chairman, thank you.
    Mr. Director, thank you so much for being here today. Let's 
just cut to the chase. The President is not enforcing the 
immigration laws, because any time you issue an order for the 
massive unilateral nonprosecution of individuals who are 
breaking the law, that is, by definition, not enforcing the 
law.
    And what bothers me even more than that, because I 
recognize there are some people on this Committee who don't 
want him to enforce the law, and other people who want him to 
enforce the law, but when we have the head of the ICE agents 
union sitting in the chair right beside you and the head of the 
Border agents union, 12,500 people, who, unlike you, have been 
on the job much longer than 3 weeks, who have conducted 
literally thousands of interviews with these individuals coming 
across the border, and they say unequivocally that the reason 
we are having this crisis is because of the President's 
policies, and they have told the President that through their 
agents, that is what concerns this Committee.
    But one of the other concerns we have is this: They are 
concerned about gang members who are being released and coming 
through because their efforts are being taken somewhere else.
    So I want to ask you this, in that probing interrogation 
that you talked about earlier that you were so impressed with, 
if during the background check or other information that is 
uncovered during the review of a request for deferred action, 
an individual's presence in the United States threatens the 
public safety or national security, is it not true that that 
individual will not be able to receive deferred action?
    Mr. Rodriguez. That is correct.
    Mr. Forbes. All right. Does gang membership qualify as a 
threat to public safety or national security?
    Mr. Rodriguez. Without a doubt.
    Mr. Forbes. Does former gang membership qualify?
    Mr. Rodriguez. In general, yes, former gang membership 
would also be a potentially disqualifying----
    Mr. Forbes. If an individual renounces their membership in 
a violent criminal gang, are they eligible for asylum or 
withholding from removal? Or are they continued to be 
recognized as a potential public safety or national security 
threat?
    Mr. Rodriguez. Generally, they would be seen as a threat 
and denied a benefit. But again, these things depend on facts 
and circumstances.
    Mr. Forbes. Your testimony earlier was that if they were a 
member of a gang, then they would be viewed as a public safety 
or national security threat.
    Mr. Rodriguez. That is correct. If they are a current 
member of a gang, then they would be----
    Mr. Forbes. All right. Then my question is this, how do you 
know? I don't think they have ID badges or membership cards. 
Are you asking them in the interview if they were ever a member 
of the gang?
    Mr. Rodriguez. Among the things that I have prosecuted in 
the past is organized crime, specifically.
    Mr. Forbes. I got all that. I just want to know.
    Mr. Rodriguez. I want to tell you about my ability to judge 
what I am seeing.
    Mr. Forbes. I appreciate that. What I want to know is what 
your agency is doing in their interviews. Are they asking the 
question, ``Are you a gang member or are you not a gang 
member?'' when they are doing these interviews?
    Mr. Rodriguez. The agency through the Fraud Detection and 
National Security Directorate is doing a robust series of 
checks to determine whether an individual has a disqualifying 
criminal history.
    Mr. Forbes. Are they asking the individuals if they have 
ever been a member of a violent criminal gang?
    Mr. Rodriguez. I am not able to speak to that specific 
question.
    Mr. Forbes. See, that is what just absolutely frightens me, 
when you come in here and testify about the broad comprehensive 
nature we need to review and change this process, when that is 
asked of you by the other side of the aisle. But when we ask 
you a simple question on the fact that you have testified that 
gang membership constitutes a public safety or national 
security threat, and we don't even know if we are asking that 
question, that gives me cause for concern.
    If you don't know whether we are asking the question, do 
you know what an individual would have to do to renounce that 
gang membership? Do they just have to say, ``I am no longer a 
member?''
    Mr. Rodriguez. Congressman, I am looking into those issues 
right now. It is my understanding that we have generally been 
very effective at screening out individuals who pose some sort 
of national security or criminal justice threat.
    Mr. Forbes. Mr. Director, I don't want to be harsh on you. 
Can you understand why the American people are so frustrated 
with this Administration? When you come in here and you say 
gang membership is a threat to national security, it is a 
threat to public safety, and you as the director don't even 
know on the interviews if you are asking the question if they 
were a member of the gang and you don't know whether or not 
they can just say, ``Oh, yes. I was a member, but I am no 
longer a member.'' That is concerning.
    I will finish with this, and then I will let you respond, 
when the border agents who are having to do this are telling us 
they are worried because we are letting gang members into the 
country, and then we find you don't even know if we are asking 
that question, that is a big concern to us.
    And I will let you respond, because my time has expired.
    Mr. Rodriguez. Sure. What I do know is where we do have 
cause to believe that an individual has been----
    Mr. Forbes. The question ought to be asked every single 
time in every interview, if you think it is a public threat and 
a national security issue, which you testified it was.
    And to say if you have cause, if somebody shows up and they 
make the allegation, you ought to be at least asking that 
question, if the border agents are saying this is a big 
concern.
    And with that, Mr. Chairman, I yield back with a great deal 
of frustration.
    Mr. Goodlatte. The Chair thanks the gentleman, and 
recognizes the gentleman from Illinois, Mr. Gutierrez, for 5 
minutes.
    Mr. Gutierrez. Thank you, Mr. Chairman. I am looking 
forward to writing my letter to Leader Pelosi. I want to come 
back to this Committee in the next Congress of the United 
States. Nothing is more interesting than coming to this 
Committee, each and every time.
    Well, guess what, welcome, Mr. Rodriguez.
    Mr. Rodriguez. It is good to be here.
    Mr. Gutierrez. You finally heard the Republicans say they 
love a union, one union, and one union only. Of course, it is 
the union that helps them promote the kind of xenophobic 
attitude toward immigrants that they like to promote in the 
Congress of the United States.
    And that is unfortunate, but they do like a union. Finally, 
there is one. I don't know if they are members of the AFL-CIO 
or what they are. It is the Border Patrol.
    But just so we get clear, he keeps talking about the 
testimony about the ICE union. Are there ICE members on the 
border stopping people from crossing the border?
    Mr. Rodriguez. My understanding is that is the 
responsibility of U.S. Customs and Border Patrol.
    Mr. Gutierrez. There we go. So there is one union you 
should stop talking about at the border, since ICE agents 
aren't at the border of the United States. But why let the 
facts get in the way of a good story.
    So here, once again, we talk about gang members. Do you ask 
5 years olds whether they are gangs?
    Mr. Rodriguez. Again, I am looking into----
    Mr. Gutierrez. Because you have to ask them all. You have 
to ask them all, 3, 4, 5, 6, 7 year olds.
    Mr. Rodriguez. It is my understanding that when we believe 
that somebody presents a national security or criminal justice 
threat, based on the biometric data that we collect, then we do 
follow up. I imagine we don't often do that with 5 year olds, 
are probably never do it with 5 year olds.
    Mr. Gutierrez. That is what I thought. But they are 
probably going to want you to ask 5 year olds if they are gang 
members.
    Do you check them for Ebola, for the Ebola virus?
    Mr. Rodriguez. Well, I do know that individuals----
    Mr. Gutierrez. Because they are very concerned about that.
    Mr. Rodriguez. I do now that individuals do receive health 
screenings at the border, Congressman.
    Mr. Gutierrez. They do receive health screenings. So maybe 
next time they are going to ask you. You should check them, see 
if they have that virus before they contaminate everybody in 
the United States when they come across.
    So what we hear constantly is about, just so that we have 
it clear, I wish I had the article, but it appears the American 
public, 70 percent of the American public, looks at the 
children at the border as refugees. They don't look at them as 
people coming here to take away jobs from hardworking American 
citizens. They look at them as refugees.
    They don't look at them as, what is it, gun-toting, tattoo-
wearing, disease-ridden criminal elements who are coming to 
destroy America, but as refugees.
    I would suggest that people go down to the border and 
visit. I think you will see that they are refugees, too.
    There is going to be another trip, bipartisan trip, this 
coming Thursday. I look forward to participating in that.
    And I am a member of the Permanent Select Committee on 
Intelligence, and we have absolutely no reports from our 
intelligence services--and this isn't these guys. These are the 
guys who are there to protect us and everything. They are 
saying they have found no relationship between those people 
crossing the border and gangs. None. They haven't been able to 
find any. They are searching, because they want to find some 
for you, but they haven't found any yet, any connection yet.
    I am not trying to say that there aren't any, but it is 
just not the prevalent case. What you have are children fleeing 
violence, fleeing poverty, and trying to reunite with their 
families. All of those things are true.
    I want to ask you a question, because there was a time in 
California when they had good old Governor Pete Wilson decide 
he would propose Proposition 187. Using similar language that 
is being used today about disease-ridden, gang-banging, tattoo-
wearing people taking away jobs and corrupting America, so he 
proposed Proposition 187, so they wouldn't be able to get 
educated.
    Do you know how many people became citizens of the United 
States of America in 1994, 1995, 1996?
    Mr. Rodriguez. I confess that I don't actually know how 
many people became U.S. citizens in those years.
    Mr. Gutierrez. Over 1 million. Over 1 million, promoted by 
none other than Pete Wilson. So Pete Wilson said, you know, I 
really don't like those immigrants. You know what immigrants 
did? They came.
    But here is the issue, Mr. Rodriguez. It was 95 bucks back 
then. It is now how much?
    Mr. Rodriguez. It is my understanding that the 
naturalization fee now, I think, is about $680.
    Mr. Gutierrez. So it is a lot more than it was back then.
    Are you doing anything in order to make citizenship--
because it just seems to me that if somebody wants to become a 
permanent resident of the United States, they just want to 
renew their permanent residence, it is around the $400 range. 
But it is over $600 if you want to become a citizen. Why is it 
so much more expensive, if you want to be a citizen than if you 
just want to be a permanent resident?
    Mr. Rodriguez. The price of any particular benefit, the 
cost of any particular benefit, is determined by the time and 
effort involved in adjudicating that benefit. Naturalization, 
we are talking about a language interview. We are talking about 
a general interview. So there is a significant time and effort 
involved. We have to pay our own way.
    Mr. Gutierrez. My time is up.
    Mr. Rodriguez. And we have fee waivers that are granted to 
about 20 percent of our applicants.
    Mr. Gutierrez. Okay. You might want to decide, thank you 
for the indulgence of the Chair, you might want to decide to 
kind of switch.
    That is to say, if I want to make a permanent relationship 
with the United States--i.e., be a citizen of the United 
States--you might want to have that cost less than I just want 
to maybe hang around for 10 more years and not make that 
permanent. Because the guy who does want to become a citizen, 
or the woman, he learns English and civics and takes a big 
chance because he might fail the test, whereas the other person 
just pretty much automatically gets extended for 10 more years.
    You might want to switch that around, since there are 8.8 
million permanent residents who can become citizens today, 6 
million of them Mexican nationals who could become citizens 
overnight. You might want to think about that, so they can 
defend themselves against those who would portray them as 
tattoo-wearing gang-bangers.
    Mr. Chaffetz [presiding]. We thank the gentleman.
    I now recognize the gentleman from Iowa, Mr. King, for 5 
minutes.
    Mr. King. Thank you, Mr. Chairman.
    Director Rodriguez, I do appreciate your testimony. I would 
like to give you a little bit of a narrative on what is on the 
front of my mind listening to this. And that is that I took Mr. 
Gutierrez's advice last weekend and went down to the border, 
started at the mouth of the Rio Grande River, right there at 
the physical border. I planted a flag there, by the way. I 
worked my way upstream all the way to Laredo.
    Stopped in at multiple places in Brownsville and McAllen 
and other places on up the river and received briefings at 
those ports of entry from Customs and Border Protection, from 
Border Patrol, from each law enforcement entity that is down 
there, including the Department of Public safety of Texas and 
Texas Rangers, and talked to people on the street.
    Here's what comes out of that for me, and that is they will 
all tell us that DACA is the magnet. And one of the excuses is 
the 2008 law for the other than Mexican unaccompanied alien 
children. That is developing into a broader policy because it 
is being exploited.
    These children are being sent into the United States at the 
expense of the American taxpayer.
    But when I met with them, I went also to an HHS not-for-
profit subcontractor who is housing 188 of the unaccompanied 
alien children between the ages of 10 and 17. There were 144 
males and 44 females. That is the 188.
    And there, and many other places, we learned this. They 
said that in some cases 100 percent of the females who are 
being sent out of Central America are given birth control 
before they leave because it is anticipated that they will be 
raped along the way. I don't believe that number is 100 
percent. I see other numbers that are less than that.
    But those who are sexually abused, the reports that we got 
in asking this question nearly every stop ranged between one 
third of the females who are coming up--this is the children, 
the under 18 children, between one third of them raped and up 
to 70 percent of them raped.
    That does comport with the expectation that handing them 
birth control pills--so apparently it is this. I expect that my 
daughter, my granddaughter, my niece, my neighbor, whoever it 
is that is in custody, when they send them is going to be 
raped, and I can deal with the sexually transmitted diseases 
and the mental trauma and the physical trauma, as long as she 
doesn't have a baby that comes along with that. That seems to 
be the psychology.
    And we went into the detention centers in the Border Patrol 
and we saw unaccompanied alien children, males and females. We 
saw mothers with nursing babies. We saw women who were ready to 
have a baby. And we watched that process go all the way 
through. And we went to the bus station to see where they were 
being dispatched out across the country.
    I did go and do these things. And asylum is a big piece.
    Sunday night, we sat at a border crossing upstream from 
that crossing and downstream from Laredo. And I have in this 
phone here a video of a raft of two coyotes who loaded a 
pregnant female in it and brazenly took her across the river 
within plain sight of the Border Patrol and the local city 
police, deposited her on the shoreline. She gave herself up for 
asylum. And before she gets hearing, the baby is an anchor 
baby.
    There is not a level of anxiety down there about this 
happening on an hourly basis in broad daylight in front of the 
Border Patrol and in front of the city police. There is anxiety 
on my part because I am watching the rule of law being 
deconstructed by this Administration.
    I have in my hand here, this is a request for proposals 
from your operation, dated June 19, which I would ask unanimous 
consent to introduce it into the record.*
---------------------------------------------------------------------------
    *Because of its voluminous size, the information referred to is not 
reprinted in this hearing record but is on file with the Committee and 
can also be accessed at http://docs.house.gov/
meetings/JU/JU00/20140729/102548/HHRG-113-JU00-20140729-SD004.pdf.
---------------------------------------------------------------------------
    Mr. Chaffetz. Without objection, so ordered.
    Mr. King. Thank you, Mr. Chairman.
    This RFP is 162 pages, titled ``Solicitation Contract Order 
for Commercial Items.'' And one of the things it says in the 
RFP is this: Based on experience over the past few years, USCIS 
estimates that application petition receipt levels could 
increase or decrease from \2/10\ of 1 million on up to 2 
million forms per year over the next 5 years.
    For asylum applications up to 2 million? And the decision 
has not been made by this Administration to expand DACA, which 
is the foundation for this human tragedy of thousands of girls 
being raped on their way from Central America to the United 
States.
    And apparently we don't have a conscious about what is 
happening to these girls--and boys, too, by the way, in 
significant numbers are being sexually abused, not to mention 
the murders and death that take place along the way.
    This Administration has made the decision. This RFP put out 
by your Administration would not have been put out, if the 
decision were not at least on the cusp of imminent.
    Can you tell me what might cause the Administration to 
retract from this, this decision, this RFP asking for the 
ability to process--by the way, USCIS, this is from the report, 
needs to acquire records management and support services for 
its service centers. The objective of the acquisition is to 
provide comprehensive records management services for four 
service centers in a manner that ensures efficient and 
effective adjudication, financial responsibility, and excellent 
customer service. I appreciate that part. And it anticipates 
implementation of new laws and policies as a cause for this.
    I think the Administration has made the decision to totally 
tear asunder the rule of law and grant administrative amnesty 
to 5 or more million people, and do so while this Congress is 
out of session.
    How would you respond to that, Director Rodriguez?
    Mr. Rodriguez. First of all, let me start by saying, DACA 
offers no benefit to the individuals coming over the border. 
They are not eligible for DACA or any version of DACA.
    Secondly, to the extent, and I am not familiar with the 
specific contract that you described, we prepare for surges in 
work that can come from all kinds of sources.
    So I will, certainly, look into that particular contract 
when I return to my office this afternoon, but I would not 
necessarily attribute it to the situation at the border.
    As far as adults, roughly 15 percent are asserting credible 
fear claims. As far as children, it is in the low single 
digits, the number of children who are actually making asylum 
claims at some point in the process. That is a different 
process than the credible fear process.
    I just thought those facts would be potentially helpful.
    Mr. King. Do we have those who are lawfully present during 
DACA, and there is an anticipation that DACA will be expanded, 
they think that if they get into America, they get to stay in 
America. And we know that that number is well above 98 percent 
who get into America who get to stay in America.
    And the asylum applications, this woman will apply for 
asylum. And before she is heard, the baby will be born, and 
there will be an anchor in this country. And that came right 
under my nose.
    I yield back.
    Mr. Chaffetz. I thank the gentleman.
    I will now recognize the gentleman from Texas, Mr. Gohmert, 
for 5 minutes.
    Mr. Gohmert. Thank you, Mr. Chairman.
    And thank you for being here, Director. I am looking at 
numbers from USCIS from March 2014, and it indicates that looks 
like through March 2014 that there has been a cumulative total 
since 2012 of 553,197 requests approved under DACA, the 
President's law that passed his lips, but not Congress.
    Do you have any updated numbers since March? Where are we 
now? It is obviously more than 553,000.
    Mr. Rodriguez. We will make sure to get the Committee 
specific updated numbers. I believe, but please don't hold me 
to this, the number now is----
    Mr. Gohmert. Well, who do I hold--I want to get somebody I 
can hold to it.
    Mr. Rodriguez. I want to get you--I just don't have it at 
my fingertips right now. I will get you the exact information 
you need.
    I believe the number is now at 714,000 individuals who have 
DACA receipts.
    Mr. Gohmert. I see. You said in answer to an earlier 
question that you have heard people say that there is a culture 
of getting to yes, but you also heard people say there is a 
culture of getting to no. And I would submit to you based on 
your own numbers that the figures bear out there is a culture 
of getting to yes.
    You can't get to 700,000, and maybe have 20,000 noes, and 
not have a culture of yes. So I would encourage you to look 
more harshly at those who say there is a culture of no.
    You said you observed a credible fear interview. Let me ask 
you, in your prosecutorial role, did you ever prosecute any 
drug crimes?
    Mr. Rodriguez. Yes, sir.
    Mr. Gohmert. Okay. So I am curious, during your prosecution 
of drug crimes, did you ever refer to someone who gave money to 
buy a big load of drugs as a drug trafficking victim? Someone 
who paid massive money to get a load of drugs, did you ever 
refer to them as a drug trafficking victim?
    Mr. Rodriguez. Let me suggest that perhaps we are talking 
about apples and oranges. But, no, I certainly did not refer to 
somebody giving----
    Mr. Gohmert. Well, let's talk about the apples and oranges, 
Director.
    When someone pays a human trafficker to move them, then I 
would submit to you they are not a victim. They are a 
participant in the human trafficking business. They are keeping 
the human traffickers in business.
    And when I was down there, the weekend before last, south 
of McAllen, right on the river, talking late at night to one of 
the border patrolman there who is Hispanic, he was telling me 
that 90 percent of the time when he asked them out there by the 
river, they say, ``Oh, I was fleeing gangs and gang violence.'' 
And he said, ``I get tough with them because I know where they 
are coming from and I speak the language well. I tell them you 
may tell that garbage to somebody else, but you and I both know 
that it was gangs that brought you up are.''
    That is who the drug cartels normally hire to bring people 
up here through Mexico. And he said 90 percent of the time or 
better, they will say, ``Well, you are right, but we were told 
to say we are fleeing gang violence.''
    Are you aware, Director, of who it is the powerful drug 
cartels in Mexico hire to move people who have paid their 
thousands of dollars across Mexico to the U.S.? Do you who they 
hire?
    Mr. Rodriguez. No, not specifically. I mean, obviously, I 
know the human trafficking environment involves drug cartels, 
involves all kind of alien smugglers. It is not exactly our 
lane, so I am not fully familiar with that.
    Mr. Gohmert. Would you call them criminals?
    Mr. Rodriguez. Human traffickers and drug cartels?
    Mr. Gohmert. Yes.
    Mr. Rodriguez. Sure.
    Mr. Gohmert. That get paid to move people illegally into 
the United States.
    Mr. Rodriguez. Sure, I have prosecuted alien smuggling. 
Yes, of course; they are criminals.
    Mr. Gohmert. And so I would submit to you that is what we 
are talking about. We are talking about people who are paying 
criminals.
    And I would submit to you that the evidence will get down 
and dirty and show that there are many gang members who are 
getting paid to transport people to the U.S., only to have them 
get here and say, ``I am fleeing gang violence.''
    So I would encourage you to be more skeptical in these 
interviews, without further evidence.
    And, Mr. Chairman, I would ask that I be allowed to submit 
to the record the evidence from Honduran Security Minister 
Arturo Corrales that there has been a tremendous drop in 
homicides between 2012 and June 2014, from 3,245 to 2,634. So 
it doesn't appear the evidence is that things are deteriorating 
down south.
    Thank you. I yield back.
    Mr. Chaffetz. Without objection, so ordered. We will enter 
that into the record.
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                               __________
    Mr. Chaffetz. We will now go ahead and recognize the 
gentleman from Texas, Mr. Poe, for 5 minutes.
    Mr. Poe. Thank you, Mr. Chairman.
    Thank you once again for being here.
    Of course, I am from Texas. I have been to the border a 
lot. I was there this weekend and saw Federal officials and 
State officials, both trying to secure the Texas-Mexico border.
    Went down the Rio Grande River. They see us coming in a 
State boat. The folks that are in the water swim back. Coyotes 
in a raft moving folks. He bails and leaves the raft on its 
own. Rocks were thrown at us going down the river. It does not 
seem to be uncommon, based upon the law enforcement officers 
that I was with.
    I just asked a lot of questions to the people who are on 
the frontline about the influx of people really from all over 
the world. Border Patrol sector chief, I asked him, who is 
coming? He said it is 144 countries that have come recently 
from all over the world, including Ukraine, coming into Texas 
from Mexico.
    It shows the magnitude of the problem.
    I was in Honduras and Guatemala earlier in the year. I saw 
the beginning of some of these folks who were making the trek.
    And here's the message, whether it is a right message or 
not, that if you get to the United States, you can stay, 
especially if you are 17 or under. You are going to be able to 
stay. The United States will take care of you.
    And so based on that, people move. The people motivating 
this are the drug cartels. And in this whole scheme of things, 
the winners, the people are making money, are the drug cartels 
and the coyotes. They are the ones who make the money off of 
smuggling people and trafficking people, which, as you know, as 
a lawyer, that is different. But they make the money.
    Drug dealers for $6,000 tell folks in Central America, give 
us $6,000, that will get you three tries to get into the United 
States. Get the Texas-Mexico border, individuals are turned 
over to coyotes. Many of them, not all, but many of them, are 
criminal gangs, and MS-13 gang, juveniles under 17, criminals, 
to smuggle them into the United States.
    Many of them are used as bait, in the sense that they start 
moving some people into United States. Drug cartels call Border 
Patrol and say here comes some more folks crossing the border. 
They use them as decoys to move their drugs further downriver 
across the river.
    So the drug cartels are the criminals, and the MS-13 gang 
and the smugglers.
    So the message is out there, right or wrong, that we will 
take care of folks. People hear that all the way down in 
Central America and all over the world, 144 countries coming 
in.
    My question goes back to deferred action that has been 
talked about incessantly since you have been here all morning.
    Do you think that expanding deferred action to include more 
people is legal? If the Administration does it, set Congress 
aside, if the Administration just defers action to another 
group of people--I am not talking about specific individuals, 
but to another group--do you think that would be legal or not?
    Mr. Rodriguez. It is my legal understanding, and this is 
something that has been acknowledged by scholars across the 
political spectrum, that, yes, there is prosecutorial 
discretion, which can be exercised in these sorts of 
situations.
    Mr. Poe. Is there a limit?
    Mr. Rodriguez. Of course, there is a limit. It is based on 
whatever the law actually allows.
    Mr. Poe. What does the law allow?
    Mr. Rodriguez. In most enforcement realms, generally, there 
is pretty broad discretion.
    Mr. Poe. So it could allow everybody?
    Mr. Rodriguez. I am sorry?
    Mr. Poe. Technically, if it is broad, that could be 
expanded to allow everybody, just everybody who wants to come. 
I mean, if it is discretionary.
    Mr. Rodriguez. I don't think that is what anybody is 
suggesting or saying.
    Mr. Poe. But you are not saying that it is unlawful to 
expand it.
    Mr. Rodriguez. Again, it is my understanding, based on my 
experience, based on my reading, that there is pretty broad 
prosecutorial discretion.
    Mr. Poe. Based on your position, where you are and in this 
long chain of immigrants and all the things we have been 
talking about, expanding that concept of deferred action, do 
you think more people will come or less?
    Mr. Rodriguez. I think the key thing when we talk about 
DACA, it----
    Mr. Poe. Excuse me. Do you think more people would be 
encouraged to come to the United States?
    Mr. Rodriguez. Not if they don't believe that there is a 
benefit. And I think it has been made very clear that there is 
no benefit for individuals who are currently trying to cross 
our border, unless they have a claim, such as an asylum claim.
    Mr. Poe. But they may perceive that DACA will apply to 
them, whether they realize the legal ramifications or not, once 
they are here. Don't you think that would encourage more to 
come?
    Mr. Rodriguez. I, certainly, think it is possible that 
there are unscrupulous individuals who are trying to deceive 
those people who are attempting to enter our country through 
the border.
    The fact is, nothing like DACA offers those individuals any 
benefit.
    Mr. Poe. They are surprised when they get here, in many 
cases, that DACA does not apply to them. Is that a fair 
statement?
    Mr. Rodriguez. I have actually looked at Latin American 
media, where it is reported that DACA offers them no benefits.
    Mr. Poe. All right, thank you, Mr. Chairman. I yield back. 
I am over time.
    Mr. Chaffetz. I thank the gentleman.
    I will now recognize the gentleman from North Carolina, Mr. 
Holding, for 5 minutes.
    Mr. Holding. Thank you, Mr. Chairman.
    Mr. Rodriguez, thank you for being here. We will start with 
a little bit of housekeeping.
    In reviewing your confirmation proceedings over in the 
Senate, I note that at the April 3 executive meeting, Senator 
Grassley pointed out that you had admitted to the Judiciary 
Committee that you were personally aware of emails between 
political employees and career prosecutors discussing the 
decision to decline to prosecute the new Black Panther Party 
voter intimidation case, and that had contradicted the 
testimony of your boss, Mr. Perez.
    So I thought I would take the opportunity to ask you if you 
were aware of any emails between Lois Lerner, or a different 
member of the Internal Revenue Service, and career prosecutors 
in the Department of Justice regarding the prosecution or 
investigation of conservative groups seeking tax-exempt status?
    Mr. Rodriguez. You are asking me if I know anything about 
Lois Lerner, Congressman?
    Mr. Holding. If you are aware of any emails.
    Mr. Rodriguez. I only know what I have read in the paper 
about that situation.
    Mr. Holding. So while you were in the Department of Justice 
as Chief of Staff for the civil division.
    Mr. Rodriguez. Civil Rights Division.
    Mr. Holding. Civil Rights Division. You are not aware of 
any emails?
    Mr. Rodriguez. I have no involvement or any awareness other 
than what you and I both read in the papers, Congressman.
    Mr. Holding. Are you aware of when the Civil Rights 
Division was tasked with beginning the investigation of the 
IRS?
    Mr. Rodriguez. I left the Civil Rights Division to go to 
the Department of Health and Human Services in September 2011. 
I think you are asking about a specific individual who was 
designated to conduct some review. I am not fully familiar--
that happened, I am pretty sure, long after I left the Civil 
Rights Division.
    Mr. Holding. Okay. Also during your confirmation hearing, 
it was determined or discovered that you served on the board of 
directors of Casa de Maryland, which is an organization that 
was known for finding employment for individuals without proper 
documentation.
    So I assume you supported this objective of the 
organization while you were on the board of directors.
    Mr. Rodriguez. In the context of the community in which I 
live, yes, I did support that mission.
    Mr. Holding. Okay. Do you believe that prosecutorial 
discretion could be used to allow for finding employment or 
allowing employment for individuals without proper 
documentation?
    Mr. Rodriguez. If the individual has a right, for example, 
through some sort of deferred action or parole, or some other 
mechanism, to be in the United States, then yes, then those 
individuals can then be given employment authorization.
    In fact, it is often a good idea, so that they are not in 
the shadow economy.
    Mr. Holding. So, in your opinion as an attorney, an 
experienced attorney at that, as the President looks at his 
options to continue to act as administratively to change U.S. 
immigration policy--the Chairman asked you at the beginning of 
the hearing as to what you had reviewed, what were the 
President's next plans.
    I would like to change the question a little bit and ask, 
in your learned opinion, what you know of the law, what you 
think the President's options are to act administratively to 
change U.S. immigration policy?
    Mr. Rodriguez. So, of course, no decisions have been made. 
I think it is important to underscore that at the beginning.
    I think the options are many that are permissible under the 
law. I think that is a deliberation that is ongoing as we 
speak.
    Mr. Holding. Give me two examples.
    Mr. Rodriguez. I am not really in a position to be able to 
give specific examples other than to make the general 
observation that the options are many.
    Mr. Holding. You can give examples, just based on your 
understanding of the law. You don't have to relate them to what 
the President is actively considering.
    Mr. Rodriguez. Certainly, DACA, as we have done it already, 
is one, obviously, very concrete example of how that discretion 
might be exercised.
    Mr. Holding. All right.
    I was looking at a USCIS chart regarding the number of DACA 
requests by requester country of birth. And it lists the top 25 
countries of the requester's birth. But there are 19,200 
requests on this chart from other and unknown countries.
    How many of those DACA requests have you received from 
applications whose home countries are listed as state sponsors 
of terrorism?
    Mr. Rodriguez. I could probably tell you the top five. 
Beyond that, I am not specifically aware of numbers.
    Mr. Holding. Could you get back to the Committee and give 
us specific numbers on that?
    Mr. Rodriguez. Absolutely, Congressman. Yes, we can.
    Mr. Holding. Think very much.
    Mr. Chairman, I yield.
    Mr. Chaffetz. I am going to go and yield myself now 5 
minutes.
    Director, again, we thank you for being here. I want to 
walk through the process and understand some of the metrics.
    So if you came to this country illegally, you can apply for 
DACA, correct?
    Mr. Rodriguez. If you qualify under the various criteria.
    Mr. Chaffetz. How old can you be before you file for DACA? 
How old can you be?
    Mr. Rodriguez. It is my understanding you can be no older 
than 31.
    Mr. Chaffetz. So you can be a 30 year old and apply for 
Deferred Action for Childhood Arrivals.
    Mr. Rodriguez. That is correct.
    Mr. Chaffetz. At that time, the guidance says, that you can 
apply for employment, a work permit.
    Mr. Rodriguez. That is correct. In order that you not be in 
the shadow economy, that you pay taxes, that you not be in a 
dependent status in any way.
    Mr. Chaffetz. So you come here illegally, and then you 
apply for DACA and you get a work permit.
    Now you said that there are more 700,000 people that have 
been put into this process, correct?
    Mr. Rodriguez. I want to confirm those numbers with the 
Committee.
    Mr. Chaffetz. Your written testimony says over 580,000, but 
you are now saying something like 700,000. It is hundreds of 
thousands of people.
    Mr. Rodriguez. It is hundreds of thousands, yes.
    Mr. Chaffetz. So you are here illegally. You haven't gone 
through the proper channels. Now you are going to apply for 
DACA. You can be 30 years old. You get a work permit.
    How many of those work permits have been terminated or 
revoked?
    Mr. Rodriguez. So, first of all, the key thing about these 
DACA individuals is that they were brought here. They did not 
come here. They were individuals who were brought here as 
children.
    Mr. Chaffetz. How do you verify that?
    Mr. Rodriguez. Based on their ages and what we know about 
their----
    Mr. Chaffetz. They could be 30 years old, so----
    Mr. Rodriguez. They would have been brought here as 
children. I mean, that is one of the criteria to establish.
    Mr. Chaffetz. How long are these interviews?
    Mr. Rodriguez. I am not specifically----
    Mr. Chaffetz. How long was the interview you sat in?
    Mr. Rodriguez. I am sorry?
    Mr. Chaffetz. You sat in on one of these interviews.
    Mr. Rodriguez. That was in an asylum interview that I sat 
in on.
    Mr. Chaffetz. How long was that interview?
    Mr. Rodriguez. That was a full hour, that interview.
    Mr. Chaffetz. And we heard previous testimony from I 
believe the last hearing we had that normally these interviews 
are 15 to 20 minutes.
    Mr. Rodriguez. If we are talking about asylum interviews, 
my understanding is in fact that they are generally far longer 
than that, that they are closer to about an hour.
    Mr. Chaffetz. So a credible fear hearing you think is how 
long?
    Mr. Rodriguez. It was an hour. The one I observed was an 
hour, and it is my understanding that that is the norm.
    Mr. Chaffetz. I think the record will correct you on that 
one.
    Of the people who apply or get DACA, they now have a work 
permit, so they can compete for a job against a United States 
citizen. How many of those get terminated?
    If you are, for instance, convicted of a felony, how many 
of those have been terminated?
    Mr. Rodriguez. As of June 31, I don't know the specific 
reasons for termination, 147 people have been terminated.
    Mr. Chaffetz. So wait, there are over 700,000 and there 
have been how many who have been terminated? 100?
    Mr. Rodriguez. I would rely, actually, on the number that 
is in my testimony.
    Mr. Chaffetz. It is not specific. There is no number.
    Mr. Rodriguez. Oh, I thought you had a specific number.
    Mr. Chaffetz. No, that is the problem.
    We have been asking----
    Mr. Rodriguez. In any event, you and I agree. We are 
talking about hundreds of thousands of people. There is no 
dispute about that. And 147 individuals have been terminated as 
of the end of June.
    Mr. Chaffetz. How do you get this information? If somebody 
is convicted of a felony in Utah or North Carolina, how do you 
get that information? Whose responsibility is that?
    Mr. Rodriguez. It comes to us through various mechanisms. 
It could be reported to us by the individual as part of the 
renewal process.
    Mr. Chaffetz. Really? You think that is going to happen?
    Mr. Rodriguez. Or it comes to us by other processes.
    Mr. Chaffetz. So you just wait for it?
    Mr. Rodriguez. From law enforcement agencies, we find the 
information----
    Mr. Chaffetz. Do you get reports of this? Do you have a 
list of this information? Do you surf the databases? Is there 
anything proactive that you do to get this information?
    Mr. Rodriguez. My understanding, at this point in my 
tenure, is that we get the information from a variety of 
different sources.
    Mr. Chaffetz. When you get this work permit, are there any 
limits to the type of work you can do? Can you get a job in law 
enforcement?
    Mr. Rodriguez. If you are otherwise qualified for that job. 
Now, I know very often law enforcement agencies have various 
sorts of----
    Mr. Chaffetz. But there are no limits on the type of job 
you can get.
    Mr. Rodriguez. In and of itself, there is no limit unless 
that job itself has some limits associated with it.
    Mr. Chaffetz. What do you say to the United States citizen 
who is doing everything legally and lawfully, that they are now 
competing for a job with somebody who came here illegally and 
applied, and the Obama administration said, well, we are going 
to defer that. You can go ahead and compete for that.
    What do you say to that person?
    Mr. Rodriguez. I have had the opportunity during the course 
of this brief time of my tenure to meet some of DACA 
recipients. These are individuals who are going to school.
    In one case, somebody who is about to graduate from----
    Mr. Chaffetz. What do you say to the citizen who now has to 
compete with 700,000 people in the workforce that wouldn't be 
there otherwise?
    Mr. Rodriguez. We have explained about the exercise of 
prosecutorial discretion. We don't have the resources to remove 
10 million, 11 million individuals. And so the question is, are 
we going to let them persist in the shadow economy or are we 
going to have them work and pay taxes.
    So the choice that has been made is to enable them to work 
and pay taxes and go to school and become upstanding citizens.
    Mr. Chaffetz. That is not what the law is, and that is what 
is sickening about this.
    I yield back.
    I now recognize the gentleman from Arizona, Mr. Franks.
    Mr. Franks. Thank you, Mr. Chairman. I appreciate it.
    Sir, I guess the first thing to deal with any problem is to 
try to dissect it and to analyze what it is.
    From my perspective, there are two main concerns that I 
have: number one, that the rule of law and the Constitution of 
the United States has been undermined here and continues to be 
undermined; and number two, that there are tens of thousands of 
children who have been put at terrible risk and who continue to 
be put at risk.
    Now I am convinced--I am just going to tell you up front 
where I am coming from--the EPIC intelligence report from July 
7, 2014, interviewed a significant number of these unlawful 
immigrants who were coming over. And 95 percent of them, 95 
percent of them, cited that the primary reason for migrating to 
the United States was the perception of United States 
immigration law granting free passes, or permisos, allowing 
them to stay.
    So there is no question in my mind, you have projected from 
2011 through 2015 now a 2,230 percent increase in these 
unlawful immigrants coming over the United States border.
    Now that a systemic issue there. And I am absolutely 
convinced that the President's telegraphing of a message to 
Central America and Mexico and other places is the fundamental 
reason that has occurred.
    So I lay the suffering and some of the things that happened 
to these children at the feet of the President of the United 
States. I have no doubt about that. Certainly, that is an 
opinion, but it is a strong conviction, and I think one upheld 
by the evidence.
    So my question is really to try to deal with those two 
things.
    First of all, I know your oath of office included swearing 
to uphold the Constitution. I am not trying to be tough on you 
or arrogant here, but I am just trying to make a very important 
point.
    How will you be able to defend the President's end run 
around Article 1, Section 8, Clause 4, which specifically 
bestows on Congress the duty to create immigration law, given 
his rewriting the law at his executive whim?
    How do you deal with your oath of office in following some 
of those perspectives?
    Mr. Rodriguez. Well, among other things, I don't accept the 
characterization that we are simply ceasing in any way to 
enforce immigration law. We are exercising our discretion to 
prioritize the most important cases, the most serious cases, 
for enforcement and removal and investigation, and focusing on 
those and dealing with individuals who are not in those 
categories.
    Mr. Franks. All right, let me try to accept that then.
    So then, would you agree that the President--I will ask you 
an open question. Does the President now have the ability with 
existing funding to help begin to stem the flow of unlawful 
immigrants into the United States? Does he have that capability 
now?
    Mr. Rodriguez. There is, certainly, some capabilities. 
Certainly, the Administration has made clear that it needs 
additional funding in order to deal with what has been a 
significant surge, one that we all agree is a significant 
issue, a significant surge across the border.
    Mr. Franks. But he cannot do that now, correct?
    Mr. Rodriguez. More resources are needed to deal with that.
    Mr. Franks. So are you saying that without additional 
funding, that the President cannot cease to use his 
prosecutorial discretion authority to shield whole categories 
of unlawful immigrants from prosecution, or he cannot implement 
tougher standards for credible fear claims? He cannot do that 
without additional funding, correct?
    Mr. Rodriguez. Well, the credible fear standard is a 
standard that is in law and that is----
    Mr. Franks. And it is also a standard that, as you know, 
has been accepted almost 600 percent greater incidence than it 
was before under this Administration--almost 600 percent. And I 
am just wondering, how do we close our eyes to the fact that 
this President's message to Central America and other places 
was that we won't do anything. And if somebody comes over, that 
is their perception.
    And it occurs to me that if the President is the cause of 
this, and I absolutely believe that the American people 
understand that he is, that he also then has the ability to 
send a different message, and to end both the suffering of 
these children, and I believe that is real.
    You know, sometimes they try to make it that people who 
want to secure the border, like I do, that somehow we don't 
care about the children. And we do. And I am convinced that the 
children that we might give a better living standard here, we 
are going to hurt four or five more by incenting them to make 
that treacherous, dangerous trip, wherein they run into all 
these kinds of problems.
    So if we are going to stem that issue, can't we call upon 
the President to send a message back that, no, there is a false 
thought that they will just be welcomed here and they won't be 
sent back? Because right now, they don't think so.
    And he is getting ready to do some other executive order 
that, certainly, underscores that concern.
    Mr. Rodriguez. The message that these individuals, for the 
most part, will ultimately not qualify to stay in the United 
States, that message has been delivered.
    Mr. Franks. Well, they are not hearing it, my friend. 
Because 95 percent of them say that this is what they are 
coming. And that is this President's fault.
    I wish I didn't have to yield back, but I yield back.
    You can go ahead and answer the question.
    Mr. Rodriguez. The flights have started going back, and the 
message has been delivered that in fact, in most cases, these 
individuals will not be able to stay in the United States. That 
message has been delivered by the President, by the Secretary. 
It has been delivered in many different ways, including by 
leadership in those countries.
    Mr. Franks. Thank you, Mr. Chairman.
    Mr. Chaffetz. Thank you.
    Director, can you clarify, when you say in most cases they 
are going to be sent back, there is no metric that I see that 
says that.
    Mr. Rodriguez. Well, in other words, recognizing that some 
individuals may be able to claim a status that enables them to 
stay in the United States, either qualify for asylum or be able 
to establish some other status that enables them to stay in the 
United States. In the majority of cases, these individuals will 
need to be returned to their countries.
    Mr. Chaffetz. I now recognize the gentleman from Georgia, 
Mr. Collins, for 5 minutes.
    Mr. Collins. Thank you, Mr. Chairman. I appreciate the 
time, and let's get right to it.
    Just a little bit ago, DHS Secretary Johnson testified 
before this Committee, on May 29. He claimed that the 
Administration's unilateral amnesty policies have created legal 
ambiguity for the status of illegal aliens.
    I objected to that point at the time. On page 6 of your 
testimony, you write that DACA does not confer legal status on 
the recipient.
    So you agree with me that Secretary Johnson is wrong that 
any deferred action or prosecutorial discretion creates a legal 
ambiguity.
    Mr. Rodriguez. Well, it, certainly, doesn't create a 
permanent status. I think that is the thrust of your question.
    Mr. Collins. No, the thrust of my question is are they here 
legal or not. What Secretary Johnson basically said was, 
because of this mismatch of policies, we have created legal 
ambiguity for people who walk across our borders illegally. And 
according to your testimony, you say DACA was part of that 
mismatch of priorities and programs.
    Would you agree with Secretary Johnson? Do you agree that 
there is a legal ambiguity, or do you agree that they are 
coming in illegally to the United States, coming in illegally, 
that there is an ambiguity to that situation?
    Mr. Rodriguez. I don't know the specific context in which 
Secretary Johnson might have been speaking. People who are 
benefiting from DACA, do they otherwise have a legal right to 
be in the United States, and it is a requirement in order to 
qualify for DACA that you not have another legal basis to be in 
the United States.
    Those are individuals who in fact are not gaining any sort 
of permanent status through being able to be in the DACA 
program.
    But I don't know the context in which Secretary Johnson's 
comments about legal ambiguity were made, so I am not really 
able to speak to that.
    Mr. Collins. Okay, then I will just ask you directly. Do 
you believe there is a legal ambiguity that is caused by the 
differences--and he actually included States and other things.
    It goes back down to the bottom line. If you cross over our 
border illegally, that doesn't automatically, by the basis of 
fact or changing or diversion or discretion, change the legal 
fact that you walked across our border illegally, correct or 
not?
    Mr. Rodriguez. I suppose that is true by definition, 
Congressman. In order to qualify for the DACA status, again, 
you have no other legal basis. It means you have no other legal 
basis to be in the United States.
    Mr. Collins. Let me just follow up on that. I apologize. I 
have had to go out. I have had several other meetings going on.
    But I think earlier when Mr. Chaffetz was asking you, you 
had said that a requirement of DACA is that they were brought 
here by someone else. That is just not true.
    DACA only requires claiming to have entered before age 16, 
even if lawfully on a visa, and be under 31 when applying.
    I think sometimes there needs to be--I think there is some 
misunderstanding here on DACA and some of the things that many 
of us don't like because of the way it basically has subverted 
the regular process.
    Let's just move on to something else at this point.
    What steps have been taken as part of the advance team 
planning effort Secretary Johnson mentioned on February 7, in 
anticipation that there will be some sort of path to 
legalization? How much has been spent on that?
    Mr. Rodriguez. I don't specifically know. I do know that 
there were efforts to prepare for the possibility of 
comprehensive immigration reform, specifically as contemplated 
in S. 744. I can, certainly, get back to you with that 
information.
    Mr. Collins. Okay, can we have time and money on the 
written answer that you will provide back?
    Mr. Rodriguez. Yes.
    Mr. Collins. Thank you.
    The New York Times reported that the Obama administration 
is prioritizing the processing of DACA applications over those 
trying to enter the country lawfully. In fact, until recently, 
a U.S. citizen could obtain a green card for an immediate 
relative in 5 months or less. But after the Administration 
instituted DACA, the service diverted its attention to DACA 
recipients, and the typical wait lengthened to 15 months.
    Why are you prioritizing illegal aliens over the immediate 
relatives of U.S. citizens?
    Mr. Rodriguez. First of all, I am pleased to report that 
the I-130 petitions have now returned within normal processing 
times. We have surges of work that come from all kinds----
    Mr. Collins. So you are saying they are within 5 months 
now?
    Mr. Rodriguez. Now it is within 5 months or around 5 
months.
    Mr. Collins. Okay, I apologize. Around 5 months or 5 
months? Because around 5 months could be 8. It could be 10. It 
could be 2. I mean, I am just trying to get clarification here.
    Mr. Rodriguez. It is at 5 months, Congressman.
    Mr. Collins. At 5 months, okay. Thank you.
    Let's go back then. I am glad it is back to where it should 
be, but why was there ever be a process in which you are 
prioritizing these applications over those who were immediate 
relatives of U.S. citizens?
    Mr. Rodriguez. Congressman, we have surges of work that 
come from all different sources. Our job is to implement the 
entirety of our mission to balance among different lines of 
business.
    One of the things from DACA experience is we actually 
learned some important lessons on how we absorb surges in work, 
which is why we were able over time to return to a normal 
processing time for these I-130's.
    Mr. Collins. Okay. Again, it is just frustrating. I know 
for those who are here legally, who are doing it the right way, 
to have been put off for any length of time over a program that 
has put them behind the priorities. That is just something that 
is very frustrating as you look at it.
    How much does the service spend on DACA applications? 
Again, spent moneywise, timewise, again, on these applications. 
You talk about the surge, how have you adapted? How much have 
you had to divert? What does it cost you in that realm?
    Mr. Rodriguez. My understanding, and I don't know the 
specifics, but what I do know is that the fee collected for 
employment authorization and for biometrics has enabled us to 
pay for the cost of processing DACA applicants.
    Mr. Collins. Can you get----
    Mr. Rodriguez. We can get back to with specific 
information.
    Ms. Lofgren. Would the gentleman yield?
    Mr. Collins. My time has expired, at this point.
    Ms. Lofgren. I just wanted to, as you proceed, it is my 
understanding, but please confirm this, that all of these 
applications were paid for by the applicants through their 
fees, and there were no taxpayer funds involved in these 
application processes.
    Mr. Rodriguez. Congresswoman, that is my understanding as 
well.
    Mr. Chaffetz. If the gentleman from Georgia will yield 
back?
    Mr. Collins. I yield back.
    Mr. Chaffetz. As we wrap up, Director, we have just a few 
items that we would appreciate if you would provide for the 
Committee.
    First, regarding DACA applications, could you provide the 
metrics by which you can sustain this claim that there is net 
expense to this? My understanding is that there is no DACA fee. 
There is for biometrics. There is for the worker application. 
But if you have 700,000-plus people getting DACA applications, 
and there is not DACA application fee, I would be curious to 
figure out where you get those funds.
    Mr. Rodriguez. We will provide you information on the cost 
of DACA.
    Mr. Chaffetz. When do you anticipate that we are going to 
get this? What is reasonable for us to get these documents?
    Mr. Rodriguez. Would 30 days be appropriate? I am not sure 
if information is immediately available, or whether it is going 
to take us some time to assemble it.
    Mr. Chaffetz. Okay, 30 days. That would be fine.
    The next one is, of the 147 felony convictions, DACA 
recipients, the 147 who have been referred to ICE for removal, 
we would love to know how many of those have actually been 
removed from the United States. And have they been referred to 
ICE for removal?
    I probably should have asked that in reverse order. How 
many of those 147 have been referred to ICE for removal? And 
how many of them have actually been removed from the United 
States?
    We also need updated credible fear numbers, and we would 
also like to know how many work authorizations have been 
granted. This would be comprehensive over everything that you 
do. You can break it out in categories, but, certainly, how 
many work authorizations have been approved.
    Mr. Rodriguez. Thank you, Congressman. We will work to get 
you that information as soon as possible.
    Mr. Chaffetz. If you can break that number out for the work 
authorizations for DACA, we would also appreciate it.
    Again, is it reasonable to think that we could have these 
questions within the 30-day window?
    Mr. Rodriguez. I believe so. If I am mistaken about that, I 
will, certainly, let the Committee know.
    Mr. Chaffetz. We hope that you can prioritize that.
    We appreciate your participation here. Welcome.
    This concludes today's hearing. I want to thank the witness 
for attending.
    Without objection, all Members will have 5 legislative days 
to submit additional written questions for the witness or 
additional materials for the record.
    The hearing is now adjourned.
    [Whereupon, at 1:06 p.m., the Committee was adjourned.]








                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Material submitted by the Honorable Zoe Lofgren, a Representative in 
  Congress from the State of California, and Member, Committee on the 
                               Judiciary


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Material submitted by the Honorable Spencer Bachus, a Representative in 
   Congress from the State of Alabama, and Member, Committee on the 
                               Judiciary


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]

</pre></body></html>
